<html>
<title> - OVERSIGHT OF U.S.-PAKISTAN RELATIONS: FROM AD HOC AND TRANSACTIONAL TO STRATEGIC AND ENDURING</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
OVERSIGHT OF U.S.-PAKISTAN RELATIONS: FROM AD HOC AND TRANSACTIONAL TO 
                         STRATEGIC AND ENDURING

=======================================================================


                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY
                          AND FOREIGN AFFAIRS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 24, 2008

                               __________

                           Serial No. 110-181

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov


                  U.S. GOVERNMENT PRINTING OFFICE
51-517                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
EDOLPHUS TOWNS, New York             TOM DAVIS, Virginia
PAUL E. KANJORSKI, Pennsylvania      DAN BURTON, Indiana
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
DANNY K. DAVIS, Illinois             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       TODD RUSSELL PLATTS, Pennsylvania
WM. LACY CLAY, Missouri              CHRIS CANNON, Utah
DIANE E. WATSON, California          JOHN J. DUNCAN, Jr., Tennessee
STEPHEN F. LYNCH, Massachusetts      MICHAEL R. TURNER, Ohio
BRIAN HIGGINS, New York              DARRELL E. ISSA, California
JOHN A. YARMUTH, Kentucky            KENNY MARCHANT, Texas
BRUCE L. BRALEY, Iowa                LYNN A. WESTMORELAND, Georgia
ELEANOR HOLMES NORTON, District of   PATRICK T. McHENRY, North Carolina
    Columbia                         VIRGINIA FOXX, North Carolina
BETTY McCOLLUM, Minnesota            BRIAN P. BILBRAY, California
JIM COOPER, Tennessee                BILL SALI, Idaho
CHRIS VAN HOLLEN, Maryland           JIM JORDAN, Ohio
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont
JACKIE SPEIER, California

                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
               Lawrence Halloran, Minority Staff Director

         Subcommittee on National Security and Foreign Affairs

                JOHN F. TIERNEY, Massachusetts, Chairman
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
STEPHEN F. LYNCH, Massachusetts      DAN BURTON, Indiana
BRIAN HIGGINS, New York              JOHN M. McHUGH, New York
JOHN A. YARMUTH, Kentucky            TODD RUSSELL PLATTS, Pennsylvania
BRUCE L. BRALEY, Iowa                JOHN J. DUNCAN, Jr., Tennessee
BETTY McCOLLUM, Minnesota            MICHAEL R. TURNER, Ohio
JIM COOPER, Tennessee                KENNY MARCHANT, Texas
CHRIS VAN HOLLEN, Maryland           LYNN A. WESTMORELAND, Georgia
PAUL W. HODES, New Hampshire         PATRICK T. McHENRY, North Carolina
PETER WELCH, Vermont                 VIRGINIA FOXX, North Carolina
JACKIE SPEIER, California
                       Dave Turk, Staff Director
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 24, 2008...............................     1
Statement of:
    Curtis, Lisa, senior research fellow, Asian Studies Center, 
      Heritage Foundation; C. Christine Fair, Ph.D., senior 
      political scientist, the Rand Corp.; Daniel Markey, Ph.D., 
      senior fellow for India, Pakistan, and South Asia, Council 
      on Foreign Relations; and Brian Katulis, senior fellow, 
      Center for American Progress...............................     9
        Curtis, Lisa.............................................     9
        Fair, C. Christine.......................................    11
        Katulis, Brian...........................................    23
        Markey, Daniel...........................................    14
Letters, statements, etc., submitted for the record by:
    Katulis, Brian, senior fellow, Center for American Progress, 
      prepared statement of......................................    26
    Markey, Daniel, Ph.D., senior fellow for India, Pakistan, and 
      South Asia, Council on Foreign Relations, prepared 
      statement of...............................................    17
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts, prepared statement of..............     4


OVERSIGHT OF U.S.-PAKISTAN RELATIONS: FROM AD HOC AND TRANSACTIONAL TO 
                         STRATEGIC AND ENDURING

                              ----------                              


                     WEDNESDAY, SEPTEMBER 24, 2008

                  House of Representatives,
     Subcommittee on National Security and Foreign 
                                           Affairs,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:10 a.m. in 
room 2154, Rayburn House Office Building, Hon. John F. Tierney, 
(chairman of the subcommittee) presiding.
    Present: Representatives Tierney, Higgins, McCollum, Van 
Hollen, Welch, Shays, and Platts.
    Staff present: Dave Turk, staff director; Davis Hake, 
clerk; Andy Wright, counsel; MaryAnne McReynolds, graduate 
intern; Alexandra McKnight, fellow; A. Brooke Bennett, minority 
counsel; Christopher Bright, minority senior professional staff 
member; Todd Greenwood, minority professional staff member; 
Mark Lavin, minority Army fellow; and Nick Palarino, minority 
senior investigator and policy advisor.
    Mr. Tierney. Good afternoon, everybody.
    I guess I can't apologize for the vote since it is not 
something I have any control over, but I have to start the 
hearing late. I understand in about an hour or so there will be 
another series of votes, so I apologize in advance for what 
might be an interruption at that time, but we are going to 
begin our hearing.
    I thank all of our witnesses for being here today and for 
assisting us by getting their information to us beforehand.
    A quorum is present and the Subcommittee on National 
Security and Foreign Affairs hearing entitled, ``Oversight of 
U.S.-Pakistan Relations: From Ad Hoc and Transactional to 
Strategic and Enduring,'' will come to order.
    I ask unanimous consent that only the chairman and the 
acting ranking member of the subcommittee be allowed to make 
opening statements. Without objection, so ordered.
    I ask unanimous consent that the hearing record be kept 
open for 5 business days so that all members of the 
subcommittee be allowed to submit a written statement for the 
record. Without objection, so ordered.
    This hearing constitutes a continuation of our sustained 
oversight of the U.S. national security interests in Pakistan 
and our strategic interest in the absolutely critical 
Afghanistan-Pakistan border region.
    Since 2007, this subcommittee has held seven related 
hearings, and we have dispatched three separate congressional 
delegations to the region.
    The purpose of today's hearing is to step back, to take a 
look at the big picture of U.S.-Pakistan relations 7 years 
since 9/11, and, most importantly, to explore options and 
opportunities for going forward.
    The challenges the Pakistani people currently face are 
multi-faceted and immense. Pakistanis are being hit by 
skyrocketing food and fuel prices. There have been runs on 
their stock market. Their two main political parties remain in 
dispute over the reinstatement of judiciary members. And 
militancy and extremism is continuing to hit home, most 
recently with the brazen bombing of the Marriott Hotel in 
Islamabad.
    At the same time, the U.S. national security interests in 
Pakistan are as acute as they have ever been, and the 
challenges will be hard to overcome. Many in the United States 
are understandably frustrated at the lack of progress in 
pacifying the terrorist safe havens in western Pakistan, which 
has led to increasing U.S. cross-border attacks, including 
reportedly raids by U.S. troops.
    Pakistan's military and civilian leadership have reacted 
strongly, stressing the imperative to protect their 
sovereignty.
    Not all, however, is lost. In fact, our two countries stand 
at an ideal time to strengthen our relationship in a strategic 
and enduring manner. For too long our relationship has been 
characterized by ad hoc and short-term arrangements. We have 
too often treated Pakistan as a means to an end rather than as 
a partner. Our hope is that leaders from both of our countries 
can work together to satisfy the long-term interests of both 
countries, leading to real security and prosperity for both our 
peoples.
    I am optimistic about the prospect for this sea change for 
three primary reasons. First, both countries have, or will soon 
have in the United States' case, new leadership. Earlier this 
year Pakistan held very promising elections and the new 
civilian leadership is now fully in place, most recently with 
Asif Ali Zadari being elected president.
    The phenomenon of new leadership for both countries will 
hopefully lead to an interest and ability to reassess and 
strategically update our relationship without the baggage of 
either side not being able to admit past wrongs.
    Second, there appears a general recognition by both 
countries on the need to implement a new, long-term strategic 
plan. I am heartened in particular about recent statements made 
by our military and Defense Department. Admiral Mike Mullen, 
chairman of the U.S. Joint Chiefs of Staff, recently testified 
in Congress as follows. He said, ``I intend to commission a 
new, more intensive strategy for the region, one that covers 
both sides of the border. . . . Absent a broader international 
and interagency approach to the problems there, it is my 
professional opinion that no amount of troops and no amount of 
time can ever achieve all the objectives we seek. . . . We 
can't kill our way to victory.''
    Secretary Gates added, ``We must continue to work with the 
Pakistani government to extend its authority in the tribal 
region and provide badly needed economic, medical, and 
educational assistance to Pakistani citizens there.''
    Third, I am hopeful that the recent tragedies inflicted on 
Pakistanis and the setbacks in Afghanistan will lend a 
seriousness and urgency of purpose. The Pakistanis lost one of 
their most beloved leaders last year with the assassination of 
Benazir Bhutto. Just this weekend they faced a horrific hotel 
bombing in Islamabad. And recent setbacks in Afghanistan, 
including the deaths of many of our brave troops, have 
collectively refocused our country's attention back to where it 
needs to be.
    Secretary Gates put it this way: ``The war on terror 
started in this region. It must end there.''
    My hope is that out of this tragedy and out of these 
setbacks can arise the impetus, focus, and urgency to do this 
right, instead of just muddling along, as we have been doing 
for far too long.
    The U.S. Coalition Support Funds program is just one 
example of the need for a more strategic, effective, and 
enduring approach to Pakistan. What began as a temporary, ad 
hoc program to reimburse Pakistan for certain assistance in the 
lead up to the invasion of Afghanistan morphed into a $6.3 
million behemoth that suffers from serious accountability, 
effectiveness, and diplomatic challenges.
    In our year-long investigation of this program, I was 
struck by how this program seemed to continue based simply on 
inertia, as opposed to satisfying any rigorous or strategic 
analysis, despite the fact that Coalition Support Funds have 
accounted for over half of the overall U.S. funding to Pakistan 
since 9/11.
    The New York Times ran an editorial earlier this week on 
the situation in Pakistan with the header, ``Running Out of 
Time.'' My hope is that years from now the people of Pakistan 
and the United States will look back at this time not as a last 
gasp effort, but rather as when we began to turn the corner to 
a brighter future for both of our countries and our peoples.
    I am delighted that we have such an esteemed panel of 
experts with us today to help chart our way forward. We 
appreciate all of the expertise and hard work that you bring to 
this hearing, and we are eager to hear your analysis and your 
ideas.
    Our panel has also traveled extensively in Pakistan and 
consults regularly with Pakistani leaders and their 
counterparts, for any strategic and enduring solutions must 
surely come from the two countries and people working together.
    In an interview earlier this week Pakistan President Zadari 
stressed ``Let's sit together. Let's find a solution.'' I would 
add let's do so with a sense of urgency and seriousness that 
these times demand.
    With that, I defer to Mr. Platts for his opening statement.
    [The prepared statement of Hon. John F. Tierney follows:]
    [GRAPHIC] [TIFF OMITTED] 51517.001
    
    [GRAPHIC] [TIFF OMITTED] 51517.002
    
    [GRAPHIC] [TIFF OMITTED] 51517.003
    
    Mr. Platts. Thank you, Mr. Chairman. On behalf of Ranking 
Member Shays and myself, thank you for holding this well-timed 
and essential hearing on U.S. relations with Pakistan. Ranking 
Member Shays will be in attendance in the near future, and we 
are going to play tag team. I apologize to our witnesses. I am 
going to get to take in your testimony in writing, but do have 
to depart after sharing Ranking Member Shays' statement, and 
then hopefully will be able to return for a later part of the 
hearing before we complete this important hearing.
    When Congressman Marshall and Ranking Member Shays visited 
Pakistan in August of this year, they found it to be one of the 
most unstable and dangerous countries in the world. Its 
government is weak. It possesses nuclear weapons. And it has 
not successfully neutralized the Taliban and al Qaeda forces 
operating along its border with Afghanistan. In fact, over the 
last few years the situation there has continued to worsen.
    Congressmen Marshall and Shays also found the government of 
Pakistan is not just fighting the Taliban and al Qaeda, coping 
with the judicial crisis, or dealing with the fractured 
coalition government; it is also trying to stabilize its 
economy during one of the worst periods in the country's 
history.
    The bottom line is: Pakistan is in turmoil and is a haven 
for terrorists.
    Most Pakistanis believe they are fighting a war for the 
United States, not for themselves, against the Taliban and al 
Qaeda. An independent survey of Pakistani citizens by the 
International Republican Institute concluded only 15 percent of 
Pakistanis believe their government should cooperate with the 
United States in the war against terrorism.
    However, Islamic extremists in Pakistan are using that 
country as a safe haven, crossing the border into Afghanistan 
and attacking our forces. We cannot allow this to continue.
    Both the United States and the international community need 
to provide additional funds and personnel to train Pakistan's 
Frontier Corps. We must also provide the Pakistani military 
additional equipment such as helicopters, night sites, and 
night vision goggles.
    Of Pakistanis, 84 percent believe inflation and 
unemployment are the most important issues facing their 
country. A falling rupee, soaring inflation, and dwindling 
currency reserves are among their mounting economic problems. 
The International Monetary Fund recommends Pakistan receive a 
substantial injection of international funds to improve its 
economic situation.
    While it is important for Pakistan to take action 
correcting the economic situation themselves, the United States 
and the international community must consider stepping up and 
providing Pakistan additional financial assistance during its 
economic crisis. Our assistance will obviously depend on how 
they respond to this help.
    The politics of Pakistan remain closely linked to the 
military. Although Pakistan was founded as a democracy, the 
Army is the most powerful political force, but a powerful 
military is not the only problem with Pakistan's political 
system. Some believe the guiding principle in Pakistani 
politics is that there are no principles. The people of 
Pakistan believe the country is heading in the wrong direction, 
and their politicians are the problem. Additionally, only 41 
percent of Pakistanis believe the government is working to 
resolve the country's problems.
    Pakistan's problems affect not only their country, but 
their neighbors and, in fact, the entire world. Consequently, 
we and the rest of the international community must come to 
grips with how we interact with Pakistan. Understanding the 
complexities of these events and taking the appropriate action 
requires an informed judgment. This is why we are here today: 
to learn from experts who understand Pakistan's problems and 
have the background and intelligence to make wise 
recommendations.
    On behalf of Ranking Member Shays, I thank each of you for 
your testimony and participation in the hearing. I do look 
forward to returning and having a chance to participate in the 
hearing a little later on this afternoon.
    Thank you, Mr. Chairman.
    Mr. Tierney. Thank you, Mr. Platts.
    The subcommittee will now receive testimony from the 
witnesses that are before us today. Let me just briefly 
introduce each of them before we start.
    Ms. Lisa Curtis is a senior research fellow with the 
Heritage Foundation. Her areas of expertise include 
Afghanistan, India, and Pakistan. Formerly, Ms. Curtis was a 
professional staff member on the Senate Foreign Relations 
Committee under Chairman Luger and a senior advisor in the 
State Department's South Asia Bureau. She has also formerly 
served as a member of the U.S. Foreign Service, in part based 
in Pakistan.
    Ms. Curtis, we thank you for testifying before the 
subcommittee today. I read with great interest the report 
entitled, ``The Next Chapter: The United States and Pakistan.'' 
And you and Dr. Fair and many other renowned Pakistan experts 
have worked so diligently to put it together. Dr. Markey, I 
think you were involved in that, as well. I think it will be 
valuable as an aid, and we look forward to what we are going to 
do strategically on this situation.
    Dr. C. Christine Fair is a senior political scientist with 
the RAND Corp. She focuses on the security competition between 
Pakistan and India, Pakistan's internal security, the causes of 
terrorism in South Asia, and the U.S.' strategic relations with 
India and Pakistan. Dr. Fair also served with the United 
Nations assistance mission to Afghanistan and Kabul and for the 
U.S. Institute for Peace and Center for Conflict Analysis and 
Prevention. She is the author of several books, including The 
Madrassas Challenge: Militancy and Religious Education in 
Pakistan, and holds a Ph.D. in South Asian languages and 
civilizations, all from the University of Chicago.
    Dr. Daniel S. Markey is a senior fellow for India, 
Pakistan, and South Asia with the Council on Foreign Relations. 
From 2003 to 2007 he held the South Asia portfolio on the 
policy planning staff with the Department of State. In 
addition, Dr. Markey formerly served as the executive director 
of the research program International Security at Princeton 
University, where he also received his Ph.D.
    Mr. Brian Katulis is a senior fellow at the Center for 
American Progress specializing in U.S. national security policy 
in, among other places, Pakistan. He is the author of The 
Prosperity Agenda and has served as a consultant to various 
U.S. Government agencies, private corporations, and non-
governmental organizations on projects in two dozen countries. 
Mr. Katulis previously served on the State Department's Policy 
Planning staff and as a fellow at the National Security 
Council's Near East and South Asian Affairs Directorate.
    The subcommittee thanks all of you for being here with us 
today. As you know, we have held several hearings on the 
relationship between these two countries, and we think that now 
is a critical time for the relationship of those two nations. 
We look forward to hearing your testimony.
    Ms. Curtis, we will start with you, please, but first I 
want to do a little bit of housekeeping. We usually swear our 
witnesses in, so if you would all be kind enough to stand and 
raise your right hands. And if there is anybody who is going to 
be testifying with you, they should also stand, please.
    [Witnesses sworn.]
    Mr. Tierney. The record will please indicate that all 
witnesses have answered in the affirmative. We thank you. Your 
full written statements will be put into the hearing record, so 
we have 5 minutes of testimony. We don't have a clock or a 
light to go on and off, so Mr. Hake is going to give an 
indication as to when you might start winding down your 
comments, if you would, so we will have some time for questions 
and answers. Thank you.
    Ms. Curtis.

   STATEMENTS OF LISA CURTIS, SENIOR RESEARCH FELLOW, ASIAN 
STUDIES CENTER, HERITAGE FOUNDATION; C. CHRISTINE FAIR, PH.D., 
  SENIOR POLITICAL SCIENTIST, THE RAND CORP.; DANIEL MARKEY, 
   PH.D., SENIOR FELLOW FOR INDIA, PAKISTAN, AND SOUTH ASIA, 
COUNCIL ON FOREIGN RELATIONS; AND BRIAN KATULIS, SENIOR FELLOW, 
                  CENTER FOR AMERICAN PROGRESS

                    STATEMENT OF LISA CURTIS

    Ms. Curtis. Thank you. Mr. Chairman, distinguished members 
of the subcommittee, thank you for inviting me here today. I 
will speak on behalf of the Pakistan Policy Working Group, 
which is an independent, bipartisan group of U.S.-Pakistan 
experts. I want to point out that the co-chair of this group, 
Ms. Kara Bue, is here in the audience. Ms. Bue is a partner at 
Armitage International and a former Deputy Assistant Secretary 
of State in the Political Military Affairs Bureau. This group 
has held regular meetings over the last 8 months to discuss 
various aspects of U.S.-Pakistan relations. We have drafted a 
report of recommendations on managing this critical 
partnership, the findings of which both myself and Dr. Fair 
will be discussing.
    This report was reviewed and endorsed by former U.S. Deputy 
Secretary of State Richard Armitage and former U.S. 
Representative and Co-Chair of the 9/11 Commission Lee 
Hamilton.
    The situation in Pakistan is grave and deteriorating, as 
evidenced by the horrific truck bombing last Friday night at 
the Marriott Hotel that killed over 50 and injured hundreds. 
The bombing demonstrates we have little time to waste in 
developing effective policies that help stabilize Pakistan and 
contain the terrorist threat emanating from the region. 
Pakistan may be the single greatest challenge facing the next 
American President.
    The United States has achieved far too little in its 
relations with Pakistan, despite having provided $11 billion in 
military and economic assistance over the last 6 years.
    Washington needs to rethink its approach to Pakistan. If we 
genuinely believe that a stable, prosperous Pakistan is in our 
interest, we must be much smarter about how we work with 
Pakistan and what sort of assistance we provide. Fortunately, 
political developments in both countries make this an opportune 
moment for recalibrating U.S. policy.
    Earlier this year an elected Pakistani government took 
office following a largely successful election, and the 
upcoming U.S. Presidential election will bring a new 
administration and the potential to consider fresh approaches 
to managing U.S.-Pakistan relations.
    I will now summarize briefly our working group's findings 
related to Pakistani domestic politics and Pakistan's regional 
relationships, while Dr. Fair will discuss counter-terrorism 
and U.S. assistance programs.
    Our group's first recommendation is that Washington be 
patient with Pakistan's democratic leadership and work to help 
stabilize the government through economic aid and diplomacy. 
With the myriad problems facing Pakistan on the economic and 
terrorism front, some in the United States may feel nostalgia 
for the days when President Musharraf wore his uniform and 
commanded a docile parliament. But, just as the United States 
was too slow in gauging public disaffection with President 
Musharraf before the 2008 elections, it must not too quickly 
lose patience with Pakistan's elected leaders. We must 
demonstrate that our backing of democratic institutions is 
unwavering and, most importantly, that we support civilian over 
military rule.
    The United States needs to overcome the widely held 
perception in Pakistan that it meddles in the country's 
political affairs. We should maintain neutrality toward 
Pakistan's internal political situation, focusing on democratic 
institutions and reforms rather than on the day-to-day tumults 
of Pakistani politics.
    To succeed with Pakistan, U.S. diplomacy must do a better 
job of distinguishing between what we believe we are doing and 
how Pakistanis perceive our actions. We must be more convincing 
that American objectives in Pakistan and the region are long-
term. This will require investing in a far-reaching public 
diplomacy program that emphasizes common United States and 
Pakistani interests in combatting terrorism, creating 
prosperity, and improving regional relationships instead of 
highlighting the struggle as part of the global war on 
terrorism.
    We need to expand the U.S. Embassy and the USAID mission in 
terms of both physical structure and personnel, and invest more 
in training our diplomats and other Government officials who 
will dedicate their careers to the region.
    The United States also must step up its regional diplomacy 
in order to assist Afghanistan and Pakistan in transforming 
their border from a hostile frontier into an economic gateway.
    Pakistan and Afghanistan are inextricably linked through 
shared borders, history, culture, and commerce. This inter-
dependence creates an opportunity for collaboration in the 
interest of greater stability and prosperity; therefore, our 
group believes that the new U.S. administration should assign 
primary responsibility for coordinating and implementing 
Pakistan-Afghanistan policy to a senior U.S. official with 
sufficient authority, accountability, and institutional 
capacity to promote better ties between these two key nations.
    A transformation of Pakistan-Afghanistan ties can only take 
place in an overall context of improved Indo-Pakistani 
relations that enhances Pakistan's confidence in its own 
regional position. Afghanistan constitutes a new battleground 
of Indo-Pakistani hostility. Continued Pakistani ambivalence 
toward the Taliban stems in part from its concern that India is 
trying to encircle it by gaining influence in Afghanistan. The 
United States must, therefore, find ways to give Pakistan a 
vested interest in Afghanistan's stability so that it adopts a 
tougher position toward the Taliban and no longer sees the 
value of allowing them to operate.
    A policy goal of the United States should be to encourage a 
serious, consistent India-Pakistan security dialog that permits 
the Pakistan army to redefine itself to better tackle the 
raging insurgency within its own borders.
    Last, the United States should work more closely with U.S. 
allies and regional countries to encourage Pakistan to stiffen 
its resolve against terrorism and to promote stability in the 
country. This means we have to raise Pakistan as an issue to a 
higher level in U.S. bilateral diplomacy, particularly with 
countries that have good relations with Islamabad, such as 
China, Japan, Saudi Arabia, and other Gulf States.
    That concludes my oral presentation. Thank you.
    Mr. Tierney. Thank you, Ms. Curtis.
    Dr. Fair.

                 STATEMENT OF C. CHRISTINE FAIR

    Ms. Fair. Thank you, Mr. Chairman and esteemed colleagues, 
for the opportunity to discuss this report.
    As Ms. Curtis explained, these are not my personal views 
but those of the Pakistan Policy Working Group. And, as she 
also explained, my remarks are going to focus upon counter-
terrorism and internal security, as well as our suggestions for 
re-optimizing the way in which the United States provides 
assistance to Pakistan.
    Mr. Tierney. Could I be rude enough to just interrupt for a 
second? I will give you whatever extra time you need for that.
    Ms. Fair. Sure.
    Mr. Tierney. Both of you went out of your way to say that 
these are not your personal views, they are the views of that 
report. Are there substantial ways that the report deviates 
from each of your personal views?
    Ms. Curtis. Not substantially. No. There might be one or 
two small points, but not substantially. I agree with the 
thrust of the arguments and recommendations.
    Ms. Fair. I think I do, too. I think if you were to arrange 
all of the folks on the optimism/pessimism side, over the last 
several years a number of questions for me personally have 
arisen about whether or not we actually have partners for 
change in the various institutions that we are trying to 
engage, and without significant partners for change I am very 
skeptical. But I think that we have to try, because the 
opportunity costs of not making an effort are really quite 
large.
    But I do believe very strongly--and I think many people in 
the working group would agree--we need to have contingencies. 
Pakistan may be the preferable partner for a number of reasons, 
but if it chooses to be unsuitable, as the report says, for 
U.S. assistance, then we really do need to find contingency 
arrangements.
    Mr. Tierney. Thank you. I apologize again for interrupting, 
but I think it is helpful for us to know on that.
    Ms. Curtis. I think the group shares that opinion that she 
expressed.
    Ms. Fair. Yes. Exactly. Good. We are on the same page.
    With respect to counter-terrorism and internal security, 
Pakistan's militant groups present daunting challenges for the 
United States and the international community, and also for 
Pakistan, itself. Despite having received some $11 billion in 
overt assistance, Pakistan is more, not less, insecure, and 
sanctuaries have expanded, not contracted. Worse, the state's 
passive and active assistance to a raft of militant groups 
persists, despite the obvious threat they pose.
    While it has moderated the activity of some militants, 
Pakistan has yet to strategically abandon militancy as a tool 
of achieving its foreign policy objectives. Alarming reports of 
ISI and Frontier Corps and even active Army support to the 
Taliban, despite massive American support to the Pakistan Army, 
undermine our goals and imperil American and Allied troops in 
Afghanistan.
    There are very serious conflicts of national interest held 
by Pakistan in the United States, despite Washington's 
largesse. Some, but not all, of these differences are due to 
the army's domination of that state and its active efforts to 
suppress developments of democracy and civilian capability.
    While the tribal areas and the various peace deals with the 
militants there concentrate the attention of Washington, many 
of the ongoing efforts to secure the federally administered 
tribal areas [FATA], have stalled, in part because they 
misdiagnosed the problem. Pakistan, itself, has yet to decide 
that FATA should not be a sanctuary.
    Yet, despite the pervasive and sanguinary violence 
perpetrated against largely Pakistani victims, Pakistanis 
believe that they are under attack, not because they confront 
an enemy opposed to their way of life, but because of 
Pakistan's alignment with the United States. Pakistanis are 
outraged by U.S. actions in FATA; therefore, the cost/benefit 
calculus of each strike must be weighed and arguably unilateral 
action is not sustainable when Washington is completely 
dependent upon Pakistan for logistical supply for the war in 
Afghanistan.
    I want to remind you that most of our logistics for the war 
move through the port in Karachi, through Pakistan, and up into 
Afghanistan.
    The United States has been hesitant to act because of 
disagreement within the U.S. Government and between its allies 
on the nature of Pakistan's support to militant groups and its 
strategic objectives; therefore, the working group suggests 
that the U.S. commission a fresh national intelligence estimate 
to form a common operating picture within the U.S. Government 
about Pakistan's support to militants and the extent thereof 
and what the support suggests about Pakistan's intentions.
    Second, the United States should develop a strategy on the 
basis of NIE and adjust cooperation and military assistance in 
an effort to influence Pakistan's cost/benefit analysis of 
using militants in its foreign policy, whether in Afchanistan 
or in India.
    Third, the United States should use its military assistance 
to turn parts of the Pakistan army and the para-military 
organization, the Frontier Corps, into an effective counter-
insurgency force subject to the possibilities. We can discuss 
that in the Q and A.
    Increase support for civilian institutions that can provide 
enhanced civilian rule of law, including oversight of the 
military and ISI, and encourage political liberalization in the 
tribal areas and elsewhere.
    With respect to U.S. assistance, despite the highest level 
of American aid to Pakistan, anti-Americanism and distrust of 
Washington is pervasive in the country. This anti-American 
populist rhetoric is dangerous and facilitates the agenda of 
militants.
    Unfortunately, despite these large sums, the average 
Pakistani hasn't benefited from American generosity. The 
preponderance of funds has gone directly to the Pakistani 
treasury through CSF, as you know, and has not been used to 
advance the well-being of the citizenry. The military focus of 
our aid has fostered the belief that Washington is ``buying 
off'' the Pakistan military and is indifferent to the 
democratic aspirations of the people.
    The United States should reorder its assistance priorities 
to more directly help the citizens and democracy and 
incentivize Pakistan to work with Washington to advance our 
mutual interests.
    The working group puts forth a number of suggestions to 
developing a more broad-based relationship with Pakistan by 
moving away from the transactional relationship with the 
Pakistan military.
    First, support the approach or an approach similar to that 
advanced by the Biden-Luger legislation. The next 
administration should commit to $1.5 billion per year in non-
military spending. Establish reconstruction opportunity zones, 
as proposed in the legislation long before the Congress, and 
consider increasing the number of product lines included in the 
legislation.
    Focus the majority of U.S. economic aid on projects and 
basic education, health care, water, and other resource 
management, law enforcement, and justice programs rather than 
on budgetary support to the Pakistan government.
    Fourth, restructure and redirect the focus of U.S. military 
assistance to providing systems and training that enhance 
Pakistan's counter-terrorism and counter-insurgency abilities.
    Since the issue of CSF was discussed, I will note in 
conclusion that we will always need some sort of reimbursement 
mechanism as long as Pakistan is engaging in activities in 
support of the global war on terrorism or whatever that 
activity may be renamed, but we all know that CSF needs to be 
more accountable. GAO has put forth a number of ways to do so.
    That being said, I think another approach to dealing with 
CSF is to move many activities currently funded under CSF to 
FMF. This has two immediate benefits.
    Mr. Tierney. You might want to spell out FMF for people 
that are in the hearing.
    Ms. Fair. I am sorry, Foreign Military Financing. There are 
two immediate benefits of this in broad-stroke terms. First, we 
actually have more control over those funds and we can actually 
direct more effectively where they go. The problem with CSF is 
that once they go into the Pakistan treasury they become 
sovereign funds and then it becomes an issue to demand 
accountability for what happens to those moneys.
    Secondarily, it would require more cooperation with the 
Pakistanis in terms of activities and programs to be acquired 
through FMF, and it would force the United States and Pakistan 
to buttress institutions like the Defense Consultative Group, 
which have really failed to live up to its name.
    We can talk about this perhaps more in Q and A, but this is 
the end of my formal remarks. I thank you for the opportunity.
    Mr. Tierney. Thank you, Doctor. You will find that some of 
your comments on the Coalition Support Funds track the staff's 
report to us that will be released tomorrow, so that is good.
    Dr. Markey.

                   STATEMENT OF DANIEL MARKEY

    Mr. Markey. Thank you, Mr. Chairman, and thank you, members 
of the subcommittee. I really appreciate this opportunity to 
appear before you to enter into your ongoing discussion about 
Pakistan and U.S.-Pakistan relations. I would like to focus my 
remarks on the topic of the tribal areas along the Pakistan-
Afghanistan border.
    These remarks are based primarily upon this report that 
should have been distributed to you, a Council on Foreign 
Relations Special Report entitled Securing Pakistan's Tribal 
Belt.
    I want to use my time here today to basically do three 
things: first, describe the nature of the national security 
challenge that I think we face, and I will do that very 
briefly; second, assess the range of relevant alternative 
strategies that we actually have before us; and, third, offer a 
few discrete suggestions for U.S. policy that would follow from 
this.
    First, the challenge. I see the challenge that we face--and 
I think some of my colleagues have already sketched this out--
as a series of nested challenges, layers. We begin with the one 
that everybody is most familiar with, the challenge of the 
headlines of violence, al Qaeda, Taliban, sectarian violence, 
tribal militancy, and so on, within the tribal belt.
    If we step back from that, though, we see a second layer, a 
layer of development challenges, political development, lacking 
political structures within the tribal regions, and economic 
development, deep poverty that is persistent throughout this 
area.
    If we step one step back from that we see all of this 
nested within the challenge of Pakistan, the nation, the 
fragility that we have talked about in terms of its own 
political institutions, its own economy, its own security that 
extends well outside this tribal area.
    And if we step one step back from that, we look at this 
from a U.S. perspective, we see the challenge of working with a 
partner in Pakistan, which has been incredibly frustrating over 
the years, and so we see this series of challenges.
    What are the options that we have? If we were to begin with 
a fresh slate, what would we have on the table? I think the 
first option that we would consider would be containment or 
deterrents of this threat that is very immediate to U.S. 
security. The problem with detainment or deterrence I think 
here, of course, is that we are dealing with sub-national 
threats, al Qaeda and Taliban. These are very difficult to 
contain and deter, as compared to nation states.
    What would be the next alternative? Coercion. Normally we 
would seek to coerce countries or states that are doing things 
we don't like. The problem here, although we have tried a 
certain amount of coercion with Pakistan, is that it risks 
alienating this partner rather than actually getting them to do 
the kinds of things we would like.
    Third would be unilateral action. Of course, there have 
been a lot of headlines about the kinds of unilateral strikes 
that the United States has reportedly made over the past year, 
and especially over the past month. But here, of course, there 
is a political cost. There is a cost bilaterally in terms of 
the U.S.-Pakistan relationship, and of course there is a cost 
that is imposed upon the region, itself, in terms of local 
tribes really rejecting this use of U.S. violence.
    So that leaves me with a final alternative, which is the 
one that I support, which is inducement. In the report I 
entitle this the least-worst option, not because it is an ideal 
solution, but because it is the least of all these bad options.
    Here the goal, of course, is to try to use assistance 
protection to shape the interests and the behavior of our 
partner in Pakistan and to do it in a way that builds a lasting 
partnership.
    How to do this? It is going to be incredibly difficult. And 
for the most part, I certainly endorse the statements that have 
been made by my fellow panelists and the report that they have 
just released. I have signed on to that report.
    But if we look specifically at the strategy within the 
tribal belt, if we narrow it down to that tribal belt area, I 
make a number of suggestions in my report and I place them in 
what I have termed a phased approach, a time line of sorts. It 
begins with the most urgent. In the urgent near future I 
believe that we need to support the use of targeted military 
action of the sort that we are seeing. These are real threats 
to the United States. They are real threats to our troops in 
Afghanistan. They cannot be diminished. And in many ways the 
Pakistanis, themselves, are incapable of dealing with them in 
the near term, and so therefore in the very near term we need 
to do that.
    I think we can calibrate these attacks and I think we can 
mitigate them with better cooperation with the Pakistanis on 
the other side. I would recommend that, as well.
    Getting past the urgent, we have the near term. In the near 
term I think we need to complement these kinds of strikes and 
all of the Pakistani military operations with economic and 
political overtures. To some degree, this was contained in sort 
of small scale, small-bore development programs that are 
designed to win over allies within the tribal belt.
    I would also include here, and I note in the report, a 
suggestion that we should be funding a civilian conservation 
corps of sorts, a plan to basically soak up young men in the 
area, provide them with near-term opportunities in terms of 
economic opportunities, and longer-term opportunities that will 
allow them a career path and a way out.
    If we look to the longer term, what I suggest in the report 
is that we really need to be looking to try to transform the 
Pakistani military. What we need to be doing is trying to turn 
it into a military that is capable of doing counter-insurgency. 
I make a number of suggestions about how that would be the 
case, but right now I would say it is not possible unless we 
seriously invest in that military.
    Then, if we look even further out, I see a generational 
challenge. This is the challenge of transforming this tribal 
region, of developing its economy, of developing its politics, 
of creating a sustainable governance system that actually 
works, unlike the FATA system that we have seen so far.
    Now let me just conclude, because I have really tried to 
summarize in brief terms, but conclude by saying that obviously 
I am advocating what looks like a very costly and long-term 
commitment. This is a commitment that is likely to test our 
patience, and it is also a commitment that may fail ultimately. 
I recognize that. But after a review of the alternative basic 
strategies that I see out there, I think that the threats 
warrant this kind of attention. And I am also convinced that 
the costs associated with those other strategies in the near, 
in some cases, and certainly in the long run are likely to run 
higher than even this approach, which is based on inducement 
and assistance and working in partnership with the Pakistanis.
    I thank you for your time.
    [The prepared statement of Mr. Markey follows:]
    [GRAPHIC] [TIFF OMITTED] 51517.004
    
    [GRAPHIC] [TIFF OMITTED] 51517.005
    
    [GRAPHIC] [TIFF OMITTED] 51517.006
    
    [GRAPHIC] [TIFF OMITTED] 51517.007
    
    [GRAPHIC] [TIFF OMITTED] 51517.008
    
    [GRAPHIC] [TIFF OMITTED] 51517.009
    
    Mr. Tierney. Thank you very much.
    Mr. Katulis.

                   STATEMENT OF BRIAN KATULIS

    Mr. Katulis. Thank you, Mr. Chairman and members of the 
subcommittee. I appreciate the opportunity to testify before 
you today.
    At the Center for American Progress, under the leadership 
of my colleague, Caroline Wadhams, and under John Pedester's 
leadership at the center, we have also convened a working group 
of distinguished experts on Pakistan to examine U.S. policy 
there. We plan to release a report next month with much 
detailed analysis and recommendations, and my testimony today 
is based on the work of that group plus three recent trips to 
Pakistan that I have made since December. I might add, though I 
am not a member of the working group that Lisa was a part of, I 
largely agree with many of its recommendations and analyses. 
There is a lot of good thinking going around town on Pakistan, 
and I think it is really important.
    Today I want to focus my remarks on a very specific 
challenge. Dan talked about urgent challenges. I want to drill 
down on one thing that I think needs immediate attention, a 
component of security in Pakistan that requires urgent 
attention, and that is economic security.
    The immediate economic challenges that Pakistan faces have 
potential for further undermining Pakistan's fragile internal 
stability. If Pakistan's economy experiences further collapse, 
the government could lose further support of the people, and 
this would be tragic.
    If you look at the basic economic statistics, they paint a 
very dire picture. Two-thirds of the Pakistani population lives 
on less than $2 a day. Though the Pakistani economy has been 
experiencing growth, 5.8 percent in the last fiscal year, that 
growth has slowed, like it has in many countries around the 
world, and much of that growth has not reached the vast 
majority of Pakistanis.
    In my most recent visits to Pakistan, when I got outside of 
that elite bubble that many of us travel in, and talked to 
ordinary Pakistanis, it was clear that the focus of ordinary 
Pakistanis were these basic needs. This is confirmed in the 
polling results that others have mentioned by the International 
Republican Institute from this June, where 7 in 10 Pakistanis 
said that their personal economic situation had worsened over 
the last year.
    When asked about the most important issues facing Pakistan, 
fully 71 percent said that inflation was the most important 
issue, followed by unemployment, poverty, and basic services 
like electricity and water.
    These basic needs ranked even higher than law and order or 
suicide bombings or even democratic reform in the eyes of 
ordinary Pakistanis.
    The silent tsunami of global food prices, as others have 
noted, has hit ordinary Pakistanis. In a separate poll 
conducted in May by Terror Free Tomorrow, 86 percent of 
Pakistanis said that they had trouble obtaining flour each day. 
In that same month, food prices increased nearly 28 percent.
    Pakistanis are also finding it difficult to meet their 
energy needs because of the rising cost of oil and gas. The 
subsidies provided by the Pakistani government have put 
pressure on the government's budget. Overall inflation has 
skyrocketed to a 30-year high, reaching 24 percent in July and, 
according to some reports, 31 percent in the first week of 
September.
    In addition to these food and fuel price increases, parts 
of Pakistan have experienced electricity shortages. In my last 
visit to the country, the capital of Islamabad actually 
experienced rolling blackouts due to electricity shortages, and 
Pakistanis have rioted in recent months in cities such as 
Multan and Karachi due to these electricity shortages.
    So my first point is that these economic troubles and these 
challenges in delivering basic services can have a de-
stabilizing impact on a country that is already facing enormous 
internal stability. In a sense, these troubles combined with 
that internal insecurity are creating a vicious cycle.
    Just a few notes on the Pakistani government and its fiscal 
crisis. The Pakistani government is facing a very severe 
financial crisis and is actually in danger of defaulting on its 
debt. This is in large part, again, due to the fuel subsidies 
and other economic obligations. Pakistan's budget deficit of 
$21 billion is the highest in a decade, and its current account 
deficit in July and August, the first 2 months of the fiscal 
year in Pakistan, is about 1.6 percent of gross domestic 
product.
    Pakistan's government debt is considered the riskiest in 
the world. Yesterday Moody's cut the ratings outlook for 
Pakistani government bonds from stable to negative because of 
the drop in foreign currency reserves. In June, Standard and 
Poor's cut its rating on Pakistan's debt, and there may be 
another downgrade ahead. So this significant decline in 
Pakistan's cash reserves is an immediate crisis that actually 
is being addressed this week in New York at a meeting that 
President Zadari has tried to pull together I believe on 
Friday.
    Other economic indicators: the rupee has lost 20 percent of 
its value and is near record lows, and the Karachi Stock 
Exchange has lost 40 percent since April 2008.
    Pakistan has started to look for external assistance. 
Though it has rejected an IMF restructuring program, sources in 
the Pakistani Finance Ministry said that they hope to obtain 
commitments between $3 to $5 billion at a Friends of Pakistan 
Forum to coincide with the U.N. General Assembly testifying 
week, and there are hints that perhaps the Asian Development 
Bank and the World Bank may offer anywhere from $1.5 to $2 
billion.
    Last week the Finance Minister of Pakistan unveiled a four-
point plan to attempt to stabilize the economy, including key 
steps such as eliminating subsidies on fuel and power, trying 
to hold the budget deficit to 4 percent by increasing revenue 
by taxes, increasing savings, and a whole host of schemes, 
including privatization perhaps of the oil, gas, and power 
sectors.
    But there is a real crunch happening, and it is happening 
right now, and it is happening in the coming weeks and months, 
and it is perhaps one of the most urgent crises that needs to 
be addressed. I think many of the recommendations that were 
offered here and are offered in the task force's report are 
essential.
    I would like to conclude by making two immediate points. I 
think first the United States needs to work with other 
countries to assist the Pakistani government to move through 
this time of economic reform and economic trouble. There are 
key powers--China, Saudi Arabia, many of the Gulf countries--
have a vital role in shaping Pakistan's economy, and 
coordination often is not as strong as it could be between 
these international actors.
    Second, as Christine noted, the United States should 
redirect its economic assistance to those Pakistanis most 
affected and refocus its development assistance projects. There 
are a lot of good ideas along that front, and I think it is 
vitally important.
    But, in conclusion, I think, two overall points, and in our 
working group session and I suspect in your working group 
session, too, we talked about the need to make a shift in U.S.-
Pakistan policy, and one common thread in all of these 
discussions was the urgent need for national security reform on 
the part of the United States; that many of the recommendations 
that you will find, I think, in the task force's report, both 
the one that you heard about today and the one that we will 
release later next month, talk about investing more in the 
civilian capacity of the U.S. Government.
    In my trips to Islamabad, I have seen in our U.S. Embassy 
out there very dedicated professionals, but I am concerned 
about the lack of investment in our capacity to deliver 
development assistance to do the sorts of things that are 
necessary, particularly on the economic development front, and 
I think we need a closer look at our capacity to do that. This 
is something, quite frankly, Defense Secretary Robert Gates has 
talked about in a very general and global context, but I think 
Pakistan is going to be a test case in terms of investing in 
the other structures of U.S. national security power to be able 
to address these challenges.
    Second, there is going to be a need for stronger oversight. 
This committee has done incredible work, I think, over the last 
few months in looking at the oversight in terms of the 
financial assistance provided to Pakistan, but if all of these 
recommendations we offer have a price tag on them, I think, 
given our experience in Pakistan, we need a closer look on 
following the money and seeing where that assistance is being 
delivered.
    That concludes my opening remarks.
    [The prepared statement of Mr. Katulis follows:]
    [GRAPHIC] [TIFF OMITTED] 51517.010
    
    [GRAPHIC] [TIFF OMITTED] 51517.011
    
    [GRAPHIC] [TIFF OMITTED] 51517.012
    
    [GRAPHIC] [TIFF OMITTED] 51517.013
    
    [GRAPHIC] [TIFF OMITTED] 51517.014
    
    Mr. Tierney. Thank you.
    I want to thank all of you for your comments and your 
expertise.
    A lot of what you say falls very clearly where the trend 
has been at hearings in front of this committee on the idea of 
needing a new strategy for the United States in this region, 
about the need to concentrate on getting our civilian capacity 
up and maintaining that, and about focusing on a better 
economic development aid package and the way it is delivered 
out there.
    But the dilemma seems to be this: everybody cautions 
patience. The United States has to have patience. I suspect 
there is some of that in the report that will come out tomorrow 
on the CSF. But then you have the military telling us you can't 
have patience. You know, we understand that every time we 
intercede in Pakistan it creates a violent reaction by a lot of 
different people there, but we have to protect our troops.
    So how do we resolve that contradiction in design here? One 
is that obviously we don't want to be creating new enemies and 
enlarging the recruitment of people in these militant groups, 
and we understand how that might even undermine some of the 
other things we have recommended in terms of buttressing up the 
economic efforts of the Pakistani government. How do you 
reconcile that with what our military is telling us, that they 
think they need to go in there and have some sort of kinetic 
action in Pakistan if they are going to be more protective of 
our troops in Afghanistan.
    You can start in any order you want to start. Dr. Fair.
    Ms. Fair. As you noted, I have had the opportunity to serve 
with the U.N. in Afghanistan. My concern has really been that 
there has been a tendency to externalize major policy failures 
in Afghanistan to FATA.
    There are a number of realities. FATA is a sanctuary. It 
has been a sanctuary. It is going to remain a sanctuary because 
that is in Pakistan's national security interests.
    I like to give the example of the Indians. They have been 
dealing with the Pakistan base insurgency in Kashmir now for 
decades. They know full well, they can even see with their 
binoculars the training camps across the LOC, but they don't 
bomb the LOC, they don't even make hot pursuit incursions 
across the LOC unless it is an accident. They have about 
300,000 individuals involved in the counter-insurgency grid in 
the area of Kashmir. So in some sense we have real problems 
with the way we are conducting that war in Afghanistan. We have 
inadequate troops. NATO, with the caveats, there are whole 
issues with NATO there, as well.
    What my fear has been is that in great measure we are 
externalizing serious policy failures in Afghanistan and 
Pakistan and the cost/benefit of these strikes are very dubious 
to me. Some of them may have operational advantages. I doubt 
that they have strategic advantages on the main.
    The problem is, of course, that there is no media that are 
allowed to operate in FATA, so as soon as the ordinance lands 
we have already lost the perception management campaign because 
they will always say it killed women and children. There may be 
not a single woman and child killed, but there is no way we can 
prove or disprove that.
    So I think my approach to this is that we really need to 
rethink the war fighting strategy in Afghanistan. These so-
called rat lines are not new. These are the same rat lines that 
militants have been using to crawl into Afghanistan for 
decades.
    So I think I am a little bit concerned that we are not 
better at eliminating these individuals as they cross, and that 
by relying solely upon expanded unilateral action we really 
have put ourselves and our relationship with this pivotal 
country in peril.
    Not only that, Pakistan engages more U.S. equities than 
Afghanistan ever will, if for no other reason than its 
population mass, because of its nuclear weapons, because it is 
the source of insecurity and therefore the source of possible 
security should it normalize its relations with the neighbors.
    I think that would be summarizing my views on the subject.
    Mr. Tierney. Does anybody else feel compelled to respond to 
that? Dr. Markey.
    Mr. Markey. I would just say, Mr. Chairman, I think you put 
your finger on a legitimate dilemma. There are some things that 
you just can't reconcile, and this may be one of them. In other 
words, I believe firmly that we are facing urgent security 
threats that the Pakistanis are unable or unwilling to address 
and that the United States may need, in certain cases, to take 
unilateral action.
    Mr. Tierney. So you disagree with Dr. Fair, who says that 
she doesn't fail to perceive the threats, but she thinks it is 
counter-productive to go in and----
    Mr. Markey. Well, I would agree with her that it may also 
be counter-productive, and that is why it is a dilemma. In the 
broader sense of the relationship with Pakistan, we are seeing 
the cost of this. We are seeing it in terms of the statements 
out of their leaders, out of their Army chief. We see it on the 
ground in precisely the way that Christine has suggested in 
terms of the cost that we pay.
    So sometimes you can't have both things that you want, ad I 
think this is one of those instances.
    If I may just make a couple of suggestions about ways that 
we could try to mitigate the cost of taking new strikes--
because I do see the disruption as being potentially useful--
would be to coordinate with Pakistanis whenever possible. I am 
not convinced that we have the level of coordination with them 
in terms of these actions that we could. Part of that is a 
trust deficit that we face and that they face.
    Mr. Tierney. So part of it also is that fact that they, at 
least as a public posture, have to say they don't want us doing 
it.
    Mr. Markey. Right. That doesn't mean that necessarily in 
the background you wouldn't.
    Mr. Tierney. Perhaps.
    Mr. Markey. And then also I think we need to maybe set the 
bar a little bit higher in terms of our target selection. There 
are targets in the tribal areas that would be more acceptable 
to even the locals than other targets. Arab foreigners, Uzbeks, 
Chechens, these are ones that we should really go after, and I 
think we have more leeway to go after.
    Mr. Tierney. And that comes down to that issue of 
intelligence.
    Mr. Markey. Exactly.
    Mr. Tierney. Mr. Katulis, Ms. Curtis, do you want to 
respond to that?
    Ms. Curtis. I think it is an issue of short-term versus 
long-term interests. As you said, the military feels it needs 
to take these actions. And what we have said in our report is 
that until the Pakistanis demonstrate they are willing and 
capable of getting at some of these targets, that we will have 
to continue unilateral actions. However, we have to do a cost/
benefit analysis, probably for each incursion, realizing that 
there are long-term costs, that these incursions would 
strengthen radical forces in the country. That is certainly 
something we don't want to do. And obviously it is going to 
create distrust when we have not asked for permission ahead of 
time with the Pakistani leadership.
    So I think we just need to have our eyes wide open as we 
move forward, but if there is a threat and it is an immediate 
threat, then obviously the United States has to do something 
about it.
    This raises another issue. Dr. Markey talked about 
inducements in terms of getting more cooperation from the 
Pakistanis. I think we all agree the Pakistanis aren't doing 
enough to address the threat.
    Now, we did not come to a firm conclusion on the nature of 
support that might be going toward groups that are opposing our 
interests, even killing United States and Coalition forces. 
That is why we called for the commissioning of an NIE. But if 
we do decide that there is support, then I think we have to 
assess why the would Pakistanis be engaging in such risky 
behavior, and we really have to think about that hard and we 
have to deal with that.
    I think it is hard to understand if you have an ally that 
there may be links to groups that oppose your interests, but 
you have to understand they have their interests, as well. We 
just have to figure out how to deal with that. I would argue it 
is carrots and sticks, not just inducements, but it is careful 
leveraging of smarter diplomacy, and just being very smart 
about how we deal with this and coming to terms with issues 
that maybe our interagency has not made a final decision on.
    Mr. Katulis. Just one point. I am deeply concerned about 
the lack of information and knowledge that we have about 
dynamics in places like FATA and NWFP. I am sure you have seen 
this, too, but our intelligence, if we are going to conduct 
these strikes, I think needs to be a lot better. In my 
discussions with U.S. Government officials, expanding our 
reach--and when I talked about reforming national security 
structures, I wasn't just talking about development assistance 
in upping the level of USAID employees that are out there to 
the extent that we can.
    It is also, I think, a human intelligence concern. I am 
deeply concerned about managing the short-term threats. We need 
to be better informed. I worked in Iraq and other places, and I 
worry that our level of knowledge about certain parts of 
Pakistan are equivalent to our level of knowledge in Iraq in 
2002. We don't, I think, understand the internal dynamics, not 
only inside these areas but also inside the Pakistani 
government.
    Mr. Tierney. Mr. Shays, do you want some time to settle in 
on that?
    Mr. Shays joins us at the moment. He is having a great day 
for complex issues dealing with this one in Pakistan and also 
in the Financial Services Committee, so we will give him a 
little time to settle in.
    Mr. Higgins. Thank you, Mr. Chairman. I just have a couple 
of questions.
    Dr. Markey, you talked about the trust deficit. Whatever 
you read, particularly in western journals, about Pakistan and 
the United States' relationship with Pakistan, it is replete 
with contradiction. Pakistan is said to be a strategic ally of 
ours. They are said to be assisting in repressing Islamic 
terrorists. But at the same time there is ample evidence to 
suggest that they are assisting the militant terrorists.
    When you look at American investment in Pakistan, some $11 
billion over a 5-year period, for both economic and military 
aid, when you look at proposals to increase that for non-
military aid, it seems as the situation in Pakistan is 
characterized consistently as grave and deteriorating, it seems 
as though there is almost an incentive to have the situation 
always grave and deteriorating because it always results in 
more money. It is typically U.S. money.
    The real question I suppose I have is where is the tipping 
point? Where is the game change? Where is the sense that we 
really have a true partner, because as recently--the articles 
that are outlined in our packet today from Time, from the New 
York Times--there is a pervasive sense of conflict as to 
whether Pakistan is really an ally of ours.
    Response?
    Ms. Curtis. I guess I would argue that I don't think we 
want to see the game changer. I would just argue that I think 
our group came to the conclusion that we need to find a way to 
partner with this country. It is in the U.S. national security 
interest that Pakistan become a stable, prosperous, moderate 
Islamic democracy. I think that this serves U.S. national 
interests. I think it serves global interests.
    We certainly have not had policies that have brought us to 
that point up until now, and I think that is why we search for 
new ways of dealing with the issue. But I think that is just 
what I would say. When you say game changer, my alarm bells go 
off because I think of game changer as Pakistan going in a very 
different direction than we would like to see it go.
    Mr. Higgins. Well, I would respond that the status quo is 
unacceptable, that this duplicity that exists at great expense 
to American taxpayers, to American military men and women, and 
our strategic interests in the area are highly problematical. 
When there is a situation that is grave and deteriorating and 
your report recommends that Washington be patient with this 
fledgling Pakistani government, I see some concerns there.
    I just want to know what is the ideal. What does this place 
look like in 24 months?
    Ms. Curtis. Just to quickly clarify, when we argue for 
patience we argue for being patient with the democratically 
elected government. We do believe that a stable Pakistan rests 
on democracy succeeding there. That is the point that we are 
making.
    A wholly separate issue is the issue of whether or not 
there are links between the military or the ISI and the Taliban 
militancy. There are sort of two separate issues, and we 
believe by being patient with democracy and the elected 
civilian leaders we are actually going to help in impacting the 
overall situation in terms of not having the public become more 
radical or seeing increased support for militancy.
    Mr. Higgins. In reality who currently controls the 
federally administered tribal area?
    Ms. Fair. Well, technically the president does, and so 
there are debates about how unstructured it really is. 
Actually, FATA does have a government structure, it is just not 
one that we terribly approve of, and it is one that actually 
worked for the Pakistanis for many years until you can put the 
clock ticking variously between 2002 and 2004. Somewhere in 
that time period the alignment of the military, the militant, 
and the mullahs came out of phase and the structure ceased to 
work.
    But I actually wanted to address the question that you led 
with, because I share your skepticism, and I also don't have a 
good answer. But I think it is important to think of a couple 
of important periods.
    In 2001 we did make a number of commitments to the 
Pakistanis about what their alignment with us would guarantee. 
We told them that we would take their equities in Afghanistan 
into consideration; yet, if you actually looked at who attended 
the Bonn conference, it was basically a conference of 
Pakistan's defeat. We told them we wouldn't let the northern 
alliance take Kabul, yet they did. We demonstrated very early 
on that we were not interested in nation building. We used 
Pakistan's traditional enemy of its proxy, which was supported 
by Iran and India, to be the sort of receptacles of our out-
sourcing of security.
    In point of fact, we were not interested in the Taliban. If 
you go through any of the recent records of the last several 
years, we didn't want to lean on Pakistan, on the Taliban, 
because we thought it would detract from the fight against al 
Qaeda. We thought that the Taliban had been vanquished. We were 
only very episodic in our leaning on them to go after the 
militants operating in India in Kashmir. I believe Lisa, many 
of us at this table, were opposed to this policy of segmenting 
the militancy, because for many of them they shared overlapping 
membership, so you can't actually say this militant is not 
dangerous to us but that one is.
    But, in fact, we were complicit in Pakistan's policy of 
thinking that some militants were protected. It wasn't until 
2005, when we began having the inkling the Taliban were back 
and that, in fact, they had sought and received extensive 
sanctuary in FATA, it wasn't really until 2006 and with great 
intensity 2007 that we began leaning on the Pakistanis to deal 
with the Taliban. In the meantime, Pakistan made a number of 
conclusions about activities in Afghanistan.
    So we are also complicit. Analysts who have been going to 
the region for many years had raised issues about the Frontier 
Corps supporting the Taliban, about ISI complicity. But because 
there had been so much discord within the U.S. Government, 
nothing really happened until this summer.
    Also I want to go back to the point that Brian made. We 
have been shackled by our own ignorance. I am struck at how 
many things are actually written about FATA when, in fact, we 
don't have a clue about FATA. Anyone who says they know about 
FATA who isn't actually from FATA in the last 6 months is 
simply engaging in deception. We have no access there. We 
rehearse these narratives from 19th century British political 
agents. The most recent scholarship, which is recycled, dates 
back to the 1970's. So we are actually forging policy about an 
area about which we know nothing, and we are not really taking 
responsibility for our own complicity in allowing Pakistan to 
target our troops while accepting $11 billion from the U.S. 
taxpayer.
    Mr. Markey. Could I just make one very quick note on that?
    Mr. Higgins. Sure.
    Mr. Markey. On this issue of the game changer question, 
just as a basic point I would suggest that we are engaged in 
the competition to identify allies in Pakistan that we can work 
with, so it is not so much a matter of waiting to see which way 
Pakistan falls; it is a matter of cultivating ties within 
Pakistan, both at the local level and I think at the national 
level. That is why some of this assistance programming is 
actually vital, even if it is frustrating and expensive from 
our side, because it helps us try to win that and make the 
answer the one that we want to hear rather than the one that we 
fear.
    Both of them are, in fact, I think, true, and you said 
hypocritical. We are seeing a lot of that. You are right. It is 
because it is a society I think that is rended by these 
divisions within it, within its own institutions, and that is 
why we see these contradictions.
    Mr. Katulis. If I could add, I share your skepticism at 
your initial question, not only about Pakistan but about many 
other countries around the world. Egypt, even the leadership of 
Iraq, where we are spending far much more money, Saudi Arabia--
we don't deliver development assistance there, but there are a 
lot of countries that play seemingly a double game.
    Going back to the central point I was trying to make in one 
of my responses, we need to have better intelligence about who 
we are dealing with, and one of the ways to do that is to not 
only put more boots on the ground--I don't think the military 
is a strong solution to the challenges in Pakistan--but having 
more knowledgeable experts in our Government in our 
intelligence agencies knowing who we are dealing with in 
Pakistan. We need to project power in that sphere a lot more 
than we have over the last couple of decades.
    Mr. Tierney. By way of editorial comment on that, our 
intelligence apparatus and personnel are a long way from being 
of a type that would allow us to infiltrate human assets into 
that area. If you look at what our people look like, what they 
sound like, languages they use, or whatever, there is a 
substantial need to buttress all those things, and it is not 
going as well as it should be at this point in time.
    Ms. McCollum.
    Ms. McCollum. I have to thank you again for holding this 
hearing, because our relationship is critically important. I 
debated between asking about the unmanned drone missions and 
what is going on there and the question that I am going to pose 
to you today. Both of them have to do with our military mission 
over there, because I have serious concerns about our relations 
are very threatened and that they are, in fact, eroding.
    Today the Financial Times reported that the Pentagon is 
developing an alternative supply line for U.S. shipments to 
Afghanistan after Pakistan blocked an important supply route to 
protest U.S. military action inside their territory. There goes 
my question, what I was going to first ask about, the drones.
    According to the Financial Times, 80 percent of the cargo 
and 40 percent of the fuel used by U.S. military in Afghanistan 
travels along the Pakistani supply routes. General James 
Cartwright, Vice Chairman of the Joint Chiefs, told the Senate 
Armed Services Committee, ``It would be challenging to sustain 
our presence without Pakistani logistic support.''
    Our supply lines for Afghanistan are also threatened by a 
recent breakdown in our relationship with Russia. Russia is 
warning that it might prevent NATO aircraft from using its air 
space because of the West's criticism of Russia's role in the 
Georgian conflict.
    From a logistics standpoint, is it realistic to maintain 
our increased U.S. operations in Afghanistan without access to 
Pakistan's supplies or Russia's air space?
    And then I would ask what other options do we have to move 
fuel, food, and materials to Afghanistan? When I compare the 
current list of U.S. allies and the list of Afghan's neighbors, 
I don't see much overlap. For those of you who don't have a map 
handy, Afghanistan borders Pakistan, Iran, Turkmenistan, 
Uzbekistan, Tajikistan, and China.
    Ms. Fair, I kind of tried to look through in the report if 
there was anything I saw on this. I did not. You alluded to it 
just very briefly in your testimony. If you would, please lend 
us any insights you have.
    Ms. Fair. You have identified it. Now, the fact is the 
Russia situation has only become problematic this summer, but 
we have had 7 years, and increasingly throughout the course we 
have known about this problem of the Janus-faced nature of 
Pakistan support. I mean, I have been a very vocal opponent of 
single sourcing logistics now for some time. But we actually do 
have options.
    The Central Asian Republics do have rail. We do have a 
memorandum of agreement with the Russians that would provide 
non-lethal support, i.e., basically petroleum products. I 
believe that memorandum was signed in April. There was no 
subsequent follow-through. Unfortunately, Russia doesn't share 
a border.
    There is another option, which I hesitate to throw out, but 
in the absence of other alternatives, as you noted, I know the 
Indian-Iranian relationship has attracted a lot of flak, but 
the fact of the matter is the Indians are building and 
expanding the deep water port at Chabahar. They are also 
working to expand the rail link that links Chabahar to Delaram 
and Zarange, and they are also building the ring road in 
Afghanistan.
    There is some merit in thinking about Indian direct sales 
to NATO where Iran is merely the transport. We don't object to 
India shipping other relief goods through Iran to Afghanistan.
    I think that there is absolute merit to begin very vocally 
hunting for alternatives, because it signals to the Pakistanis 
that it is not just inducement, it is not just a free lunch. 
For too long Pakistan--and every time I get onto CENTCOMM I 
swear I get a new gray hair, because I hear repeatedly we do 
need the Pakistanis more than they need us, and I object to 
this rigorously. Chinese military assets? Good luck with that. 
We may need the Pakistanis for logistical supply, for support, 
the global war on terrorism. Pakistan needs us to be a 
successful, modern, stable state, and we have to keep this 
symbiosis intact.
    I think that the value of talking to Russia, of talking to 
the Indians, to even begin creating the activity of lessening 
our dependence on Pakistan could be an important step in 
shaping their view of our intent to find alternative options 
and their intent to undermine our intentions in Afghanistan.
    Mr. Tierney. Mr. Van Hollen.
    Mr. Van Hollen. Thank you. I thank you, Mr. Chairman, for 
holding these hearings and thank you to all of you for your 
work in this area.
    I have two questions. One relates to the control of the new 
democratically elected government over control of the military 
in Pakistan. I think we all welcomed the transition to 
democracy. In fact, I think most of us on this subcommittee 
thought that the administration put too many eggs in the 
Musharraf basket for too long. But, given the current 
situation, you know, we talk about whether the ISI is a free 
agent or operating independently. The question I have is how 
much control does the current new president of Pakistan have 
over the military, and, if there is no control there, how do we 
get at that relationship in dealing with the Pakistanis, both 
through the military side and the governmental side?
    And then, given the sort of inevitable tension that is 
going to exist that you all talked about when you were asked 
the question about how do you choose between, on the one hand, 
the long term and the short term, it seems to me that one thing 
that we have to do is signal to the Pakistanis that we are not 
just interested in them whenever Afghanistan comes into play, 
whether it was with the Soviet invasion or whether it is with 
9/11, but that we have long-term interests in engaging there.
    You have emphasized a lot the economic component. If you 
could just state what you think the urgency is with respect to 
moving forward on the ROZ--the reconstruction opportunity 
zone--legislation which many of us have been pushing for. It 
has been in the works for a long time. A lot of us have argued 
that we need to look at this more in the national security 
frame than squabble over some of the trade issues that come 
into play in much larger trade agreements. And, second, the 
Biden-Luger legislation. Just talk about how important that is 
politically within Pakistan for us to be sending that signal 
that we are engaged in the long term.
    Ms. Curtis. Well, to answer your first question, I think 
the blunt answer is the civilian leadership doesn't have 
control over the military. This is a transition that we are 
seeing, and I think that we have to accept that. That is why I 
think in our report we have argued for supporting democracy, 
supporting the civilian leadership, but realizing that it is 
from the military that we need to see the commitment to 
reigning in militancy and terrorism in the FATA.
    The ROZ legislation I think is enormously important, and I 
think it is more important now than ever because of the actions 
that we have felt compelled to take, the unilateral military 
actions, which unfortunately have resulted in civilian 
casualties, which has outraged the Pakistani public. We need to 
show that we are interested in the people of the region, in the 
social uplift of the region as part of a holistic strategy to 
uprooting terrorism in the region.
    I know this ROZ initiative was announced in March 2006, I 
think by President Bush, so it has been out there for a very 
long time, and I think it is extremely important that we move 
forward.
    I understand there are some political issues there, but in 
terms of our own national security this is absolutely the kind 
of initiative that we should be pushing right now, and even if 
we have the tensions with the Pakistan military, this is the 
kind of legislation that reaches out to the people, creates 
jobs, economic opportunity, and pretty much the same for the 
Biden-Luger legislation focused on economic assistance showing 
the Pakistani people we have a long-term interest in the 
country.
    Ms. Fair. I have a couple of comments about this civil 
military issue. You know, the United States loves to pick our 
guy, or sometimes our gal in the case of Benazir Bhutto, but 
there are some really significant structural impediments to 
true civilian control of the military.
    In June there was a lot of hullabaloo and excitement that 
the Pakistan army submitted--gasp--a four-page budget to the 
Senate, and that for the first time in the Senate's history it 
actually debated the budget.
    What was, unfortunately, lost in all the enthusiasm for 
this great moment of civilian triumph over military budget 
request was that, under the Pakistan Constitution, neither the 
Senate nor the National Assembly is authorized to alter the 
Army's budget request. So this is just one example.
    I think Kayani, the chief Army staff, is very clever. He 
knows that we want to see a greater civilian face in the 
military, and it is these sort of dramatic events that we 
shouldn't be fooled by.
    That being said, when I have had the opportunity to talk to 
Pakistani legislators, they are actually flummoxed. They don't 
actually know how to exert control of the military. They will 
say, for example, well, we don't really have the right because 
this all involves national security issues. You have to 
remember the average educational level of the average Pakistani 
legislator.
    I actually think that one area of focus, we always talk 
about an IMET for the military. What we need is an IMET for the 
bureaucrats and the civilian political workers. They need to be 
competent.
    Whenever I tell them the U.S. Senate, the U.S. House of 
Representatives has committees where there are special people 
who can hear about complex things that involve issues of 
national security, many Pakistani legislators are absolutely 
floored by this. It really strikes me that we have a tremendous 
opportunity to try to impart this kind of competence.
    This opportunity--I really want to emphasize it--the 
Pakistan Army is down and it is out. Probably never since the 
1971 war has this Army been so emasculated. It is loathed. It 
is despised. Even in the IRI opinion polls, you see the opinion 
tacking upward, but it is still an Army that doesn't feel 
comfortable amongst the people. So there is this window of 
opportunity to really help the civilians put into place 
legislative structures that will, over time. But if we don't 
take advantage of this opportunity, I fear that, as the 
civilians continue muddling along, the cyclical contempt for 
the civilians will set in, the Army won't look so bad, and 
Kiyani's term will end in about 2 years, even if he is the 
democrat, which I doubt he is.
    Mr. Tierney. Thank you. Mr. Katulis, did you want to make a 
brief remark?
    Mr. Katulis. Very briefly. I think to do the sorts of 
things that Dr. Fair talks about, which I think are extremely 
important, goes back to one of the points I made in my opening 
remarks. We need to reform how we do business. I am deeply 
concerned about how our military-to-military relationship is 
often stovepiped and away from all of the other structures of 
potentially developing the bureaucrats or the civilian 
capacity. I think in a certain sense we don't often present an 
integrated face out there. I think there may be an opportunity, 
given all of the good ideas in these reports, to restructure 
how we do business in Pakistan as perhaps the most urgent case 
that we face in doing that.
    Mr. Tierney. Thank you.
    Mr. Shays.
    Mr. Shays. Thank you, Mr. Chairman. I thank my colleagues 
for participating in this hearing.
    I had the opportunity to be in Pakistan and Afghanistan in 
August, and while I have been to Iraq many, many times, this 
was my first visit. I was struck by the fact that Pakistan 
seems to be obsessed with India and ignores the fact that it is 
being eaten up from inside in its northern territory and the 
FATA region. I am just interested, is there any possibility 
that we can get them to work better with India, not use so many 
resources to defend themselves against India, and get them to 
wake up to the fact that while they worry about India they may 
be eaten up from within?
    Mr. Markey. This I think is exactly what we need to do in 
terms of a transformation of not only the public, although that 
is important, but particularly within the military. In order to 
transform pieces at least of the military--if not most of it--
so that it understands its mission differently and is capable 
of doing counter-insurgency, they first need to have this 
change of mindset of the sort you are describing.
    Now, on the plus side, despite the fact that you heard a 
lot of obsession about India, the relationship with India is 
actually better now than it has been at many other points in 
their history. There is something to buildupon and there is 
reason to believe that on the civilian side, in terms of their 
leadership, they are eager to do that. At least the Pakistan 
People's Party leadership recognizes that they would like to 
have a better working relationship with India, that there is 
money to be made, that there is a relationship to be improved 
there.
    This has not filtered down through the ranks of the 
Pakistani Army, which is indoctrinated with a kind of mentality 
that you have suggested, and that is one of those kinds of 
challenges that requires a real shift in doctrine, a shift in 
training, a shift in organization. I suggested at points that 
the only way to do that is to provide them incentives.
    If you look at the way that other militaries have 
transformed themselves in various instances, including our own, 
it is a long-term process that requires a different pathway to 
success within the Army, but all of this requires a top-down 
decision to begin with, and that is why that relationship with 
Kiyani, for instance, is an important one.
    Mr. Shays. Dr. Fair.
    Ms. Fair. A couple of thoughts on that. I generally agree 
with Dan, but, too, insurgents, the infiltration has increased 
this summer, so there is evidence that the old gain of 
insurgency in Kashmir is back on. This is actually a situation 
where India should also be very much put to test. Though 
Musharraf had many detriments, one of the things that you could 
certainly say about him was that he was willing to abandon 
Pakistan's traditional unworkable position on Kashmir. He was 
actually very out of the box.
    The Indians were actually the ones that were not willing to 
move on any of Musharraf's suggestions. It is actually very 
unfortunate that, of all of the things that could have been 
obtained from the Indo-U.S. nuclear deal, a commitment from 
India to work more proactively to resolve the Kashmir issue 
really wasn't one of them. So India really should be a point of 
discussion, because it is India that really has been the one 
that has been sticking that up.
    Second, many of Pakistan's apprehensions in Afghanistan 
draw from its apprehensions of India, so when the Pakistanis 
talk about the Indian presence in Afghanistan, I actually take 
those concerns very seriously.
    The Indians, the activities they are engaging in in 
Afghanistan are very disruptive from Pakistan's point of view. 
Similarly, the relationship that Pakistan has with Afghanistan 
on the border that remains unsettled is another opportunity 
that we should be leveraging to try to find some way of 
ameliorating this. In other words, if you look at Pakistan on a 
map, the majority of its borders are undefined, and that is a 
serious shaper of the way in which Pakistan behaves in its 
region.
    Mr. Tierney. Let me ask if our witnesses are willing and 
able to come back in about a half hour after we finish this 
round of voting. There are some more questions Mr. Shays would 
like to ask. I have a couple that I might. Would that be a 
serious imposition to any of you or something you can do?
    [No response.]
    Mr. Tierney. Fine. So we will recess until after the last 
vote, which should be approximately 20 minutes to a half hour. 
Thank you for your indulgence.
    [Recess.]
    Mr. Tierney. I know it is a little presumptuous of us to 
rush everybody to their seat after having a half hour more 
delay, but we do want to give you an opportunity to respond to 
some other questions, us given a chance to ask them, and then 
everybody a chance to call it a day.
    Mr. Shays, we interrupted you for the vote, so why don't we 
go back and see if you have some other questions.
    Mr. Shays. Thank you.
    I wrestle with what we failed to do in Iraq, which I think 
now we are doing much better, but when I went to Afghanistan I 
saw the same mistakes that we made early on in Iraq we are 
making in Afghanistan.
    I would like you to describe to me, I have a sense, without 
the knowledge to really back it up, but the sense that the FATA 
region is almost like what Afghanistan was under the Taliban; 
in other words, that it really is a pretty lawless area and 
that the Taliban, whether they are Afghan Taliban or Pakistani 
Taliban, are able to operate fairly freely. I want to know if 
they have that same freedom in the Northwest Frontier or the 
northern areas. I would love you to just talk to me about this 
part of Pakistan.
    Mr. Markey. I do think that it is similar, in a certain 
sense, to Afghanistan before 9/11 in the sense that you 
obviously have groups that are very dangerous that are 
operating there. There are very important distinctions, though, 
that I would make between the FATA and the NWFP, Balochistan. 
Parts of Pakistan that are outside the FATA are technically 
supposed to come under the governance of the normal state 
within provincial authority.
    Mr. Shays. Right.
    Mr. Markey. That doesn't mean that there is always a lot of 
control, but there is a very different institutional 
arrangement.
    Within the FATA, you have these seven agencies which are 
technically supposed to be essentially run, in terms of their 
internal affairs, by tribal authorities, so that is very 
different, even from the Afghanistan before 9/11, where you had 
warlords operating but you had a sense that Afghanistan should 
be a state. There is a difference. In some ways it is even more 
difficult.
    But the last thing I will say is to get back to a point 
that Christine made, which is that entry into the FATA is so 
incredibly difficult for journalists, certainly for scholars, 
for anybody who is not well armed and well connected, that our 
level of ignorance about precisely what level of control is 
held at any given point is very high.
    Mr. Shays. But I have the sense that even the Pakistani 
government has a level of ignorance about what is going on 
there.
    Mr. Markey. I think you are probably right. I think that 
the nature of the relationship that Pakistan has had in that 
area has been through their political agents, which is a 
holdover from a colonial system, and through their intelligence 
services and through the relations between those groups and the 
local tribesmen.
    I think that they have been at a loss at a number of points 
to really understand the dynamic. I can only say this, not 
because I know the answer, but because I have had different 
Pakistanis in positions of power tell me very different things 
about what they thought was going on, so different, night and 
day different, and criticizing each other for having no clue 
how the tribal areas work, that it leads me to wonder whether 
any of them really have a deeper sense, even those who have 
been based there for some period of time. It is a difficult 
area to get a handle on.
    Mr. Shays. Before going a second round and taking over, 
could you just explain to me, is the Northwest Frontier or the 
northern areas similar to the FATA in terms of are they much 
more governable?
    Mr. Markey. Well, the Northwest Frontier province is under 
provincial authority.
    Mr. Shays. Right, but I am just wondering if the Taliban 
have----
    Mr. Markey. Yes, they have. Parts of that, including Swat, 
which is the most well-known, have had trouble in terms of 
governance, in part because of the way that the provincial 
authority has tried to implement judicial reform. That has been 
one of the key sticking points.
    Mr. Shays. Do the northern areas represent a problem for 
Pakistan?
    Mr. Markey. Not in the same way.
    Mr. Shays. So those are the two regions?
    Mr. Markey. And parts of Balochistan, which includes 
Quetta, which is where most people suggest there is a strong 
Afghanistan Taliban presence.
    Mr. Shays. What I want to do on the second round is to talk 
about the relationship of Afghanistan and Pakistan. I can't 
imagine that you would be experts about Pakistan without having 
some real sense of where we are in Afghanistan. Would that be 
accurate?
    Thank you.
    Mr. Tierney. Thank you.
    There is a group that is getting together that I think we 
will be a part of pretty soon to talk about the difference in 
the different regions, the different ethnic groups throughout 
Pakistan, which is, of course, itself a real dilemma, 
particularly as it bleeds over into Afghanistan. So there is so 
much that is complicated and complex.
    I didn't hear anybody really address it except Brian 
Katulis at the end of his remarks as one of his remaining two 
points, about the need for us to really have a larger contact 
group to look at this as a region and to sort of have a lot of 
people that are involved in this determine what is the security 
role of Pakistan in that region and what is everybody else's 
role in securing that, whether it is the borders or providing 
some security in other ways. In such a group I would think you 
would need not only China and India and the Stans that border 
it and Afghanistan, but also Iran. Is there anybody that 
disagrees with that? If so, why?
    Mr. Katulis. I don't disagree with that. I would even 
expand the group, if possible. I am struck by how important the 
oil-rich Gulf Arab countries are to Pakistan and its economy.
    We talk a lot about bilateral development assistance. We 
talked somewhat about ROZs and all of these important things, 
foreign direct investment, but people forget that there are, I 
think, nearly 3 million Pakistanis that live in Gulf Arab 
countries that send remittances back home that are terribly 
important for their economy.
    It is also important to note that the Saudis and the 
leadership in the UAE play, I think, a very important role as 
interlocutors in some of the internal political disputes. You 
see this and you saw this particularly over the last year. So I 
think some sort of comprehensive approach, a strategy that 
Pakistan shouldn't solely focus on what we are doing. It will 
need to actually discuss all of the countries that neighbor 
Pakistan, including Iran, as difficult and as complicated as 
that is with its nuclear program and its impact on dynamics in 
the Middle East, but even more extensively we will need to 
include countries that aren't contiguous with Pakistan.
    Mr. Tierney. It is going to require more than just the 
friends of Pakistan in terms of financial investment; it is 
going to include identifying where--I mean, the money is coming 
from somewhere to arm and train all of these militants in 
Pakistan. I mean, they are tremendously sophisticated in their 
tactics and in their equipment, to a certain degree, on that. 
So getting people that have been involved in that to be part of 
the solution as well as cutting off some of these borders where 
people from other countries have flown back and forth and 
becoming part of the militant organizations.
    I didn't mean to cut you off, Dr. Fair. You wanted to say 
something?
    Ms. Fair. Yes, if it is OK.
    Mr. Tierney. It is always OK. Sure.
    Ms. Fair. A couple of questions about remittances. 
Actually, I wanted to make this point earlier about our 
ignorance of FATA. I am often dismayed by journal articles 
often recycling the same stuff about Pashtunwali, the 
changeless code of the Pashtunes. Nothing could be farther from 
the truth. That thing has changed so much.
    A couple of notable things to think about. Aside from the 
last three decades of warfare and displacement internally and 
otherwise has actually been the role of remittances. Lisa 
Curtis and I are from the same home town in Indiana, and I 
actually like to joke that your average Pashtun family living 
in the tribal areas is more globalized than my family in the 
sense that they have relatives living in the Gulf because there 
are no opportunities in the tribal areas. The strategy has been 
since the 1970's to export labor. Not only are they living in 
the Gulf; they are also living throughout Karachi, so much so--
--
    Mr. Tierney. Could be Irish.
    Ms. Fair. Exactly. That is exactly it. And so we often, I 
think, fail to remember that not only have remittances 
transformed Pakistan's economy, they have also transformed 
FATA.
    If you look at the way in which the Pakistani Constitution 
governs FATA, the Frontier Crimes Regulation, there is a 
relationship that Pakistan the center has with the agencies. 
They pay the tribes basically a welfare payment based upon 
their demographic distribution, last negotiated about 60 years 
ago or so. So you have this power structure set between the 
Center and FATA that has been completely undermined by these 
remittances and other social cleavages that we are largely 
ignorant of. So I think the remittance point is actually very 
important.
    The other thing I would like to talk about a little bit, 
Iran. I think it is sometimes assumed that Iran has cozy 
relations with Pakistan. Actually, I was fortunate enough to do 
some field work in Iran in 2001. Iranians are actually fairly 
chary of Pakistan. Though they got much of their nuclear 
technology from Pakistan, they actually view Pakistan as a 
reckless nuclear power. They nearly came to fisticuffs in 1998 
when their diplomats were killed in Afghanistan. They blamed 
the ISI for that.
    So when I look at some of Iran's equities in the region, 
obviously leaving aside the enormous differences, they share a 
lot of interests with us in Afghanistan, despite the fact that 
they are presently tactically supporting the Taliban. In the 
big picture, they have similar objectives vis-a-vis Pakistan 
and Afghanistan, and obviously they have very similar 
objectives with the Indians because they are working with them 
on a number of issues. It does merit exploring how we can 
exploit these tactical and operational, even strategic, 
similarities with the Iranians in the context of these huge 
differences. I think that the cost may not be as high as the 
benefit from that engagement.
    Mr. Tierney. We had a series of hearings that I recommend 
to people that might be interested in that. We brought in some 
former administration officials that were dealing with the 
Iranian matters right after 9/11. We talked about the level of 
cooperation and the opportunities that existed then for 
reaching some accord on some of these issues. And it means they 
are probably not foreclosed forever from trying to reach some 
accord in the future.
    Dr. Fair, in your remarks you talked about your skepticism 
about Pakistan being the partner for the United States the way 
things are going and said that we have to give it a try, you 
want it to work out, but if Pakistan turns out that it is not 
the right partner for the United States we will have to explore 
other options. What are those other options?
    Ms. Fair. Well, all of this is really a game of chicken. It 
is a question about are you comfortable with throwing your 
steering wheel out the window. In Afghanistan, like I said, we 
have made some serious mis-steps. I don't think we had enough 
troops. I am not sure that we still have enough troops. That 
said, I am not sure the Afghans will tolerate more troops. We 
might be at that point of diminishing margins of return.
    That being said, Pakistan is, I think, the most desired 
ally for a number of reasons, but if Pakistan can't or won't 
turn its back on the Taliban, if it can't or won't put its ISI 
under constraint so that it is not actively targeting our 
troops and that of our allies, there are other options.
    The Indians have certainly shown to be a combustible 
presence in Afghanistan. It may not be very pleasant, but, as I 
said, the Indo-Iranian relationship is there. There is a 
logistical supply route. It may be politically and 
diplomatically costly from where we are standing today, but if 
you look at the distance between Chabahar and the Afghan 
border, it is actually a lot shorter than Karachi to Torcom. So 
we actually do have some options.
    As has been said repeatedly--and I hesitate to talk about 
this in an open forum, because I don't want to be taken out of 
context--so far we have only talked about inducements. I 
actually think that, should Pakistan not cease and desist or 
find some way of approach with us on these core issues, that it 
actually becomes a compellance problem. How do we compel 
Pakistan to cease doing what is in its national interest? You 
could imagine working through the U.N. Security Council 
Resolution to redefine Taliban and what assistance to the 
Taliban means. This has been a very sensitive political issue. 
It has been defined, the Taliban as well as assistance, to 
basically cater to Pakistani equities. One could get a lot more 
nasty there.
    The unilateral attacks that we are engaging in right now, 
obviously I am not a fan of them in general unless it Bin Laden 
and you know it is him and you can get him. I think the cost/
benefit analysis needs to be evaluated in each case. But why 
are you basically poking at the bear but not killing the bear? 
The Courtisure is not called the Courtisure because it is in 
Kandahar. So, you know, there are, in fact, a range of very 
unpleasant things that could be done.
    I think the United States should actually be thinking about 
what are the unpleasant contingencies. What are Pakistani 
counter-reactions? We actually haven't done a very good job of 
that. The threat of the port hasn't really galvanized us to 
come up with very many alternatives, but I think we really do 
have to think about the fact that the carrots may not do it. 
Pakistan's interests in Afghanistan may be more important than 
what we want it to do on the global war on terrorism. And to 
simply pretend that those divergences don't exist, I mean, we 
really do that at our peril. We need to think about the serious 
conflicts of interest and what do we do about it.
    Mr. Tierney. Thank you for that.
    The whole issue of aid, when we travel over there and we 
speak with President Karazi and others--it happened to be one 
of the visits we were on where they just issued a report about 
aid and saying that the K Street Gang takes 40 percent off the 
top for arranging the aid, it gets to locally and people take 
40 percent off of the remaining 60 percent for their role in 
distributing and running the programs, and by the time it gets 
through where the rubber meets the road, not much happening on 
that. And then we insist on not necessarily letting the locals 
do it but coming in and paying contractors and others to do it.
    I think that your reports and other comments that we have 
heard say how much more preferable it would be to get the 
smaller projects perhaps going with local people, with good 
advice and counsel where it might be necessary, or even some of 
the larger projects with local people working on them, whether 
it is a road or a well or anything else. How do we get to that 
point? How do we get to that point? We don't have as many Greg 
Mortensons as we would like in the world who I think deserves 
some credit for all that he has done in terms of the education 
aspect of that. But, while there are other agencies out there, 
are there enough other local agencies like that? How do we move 
in the direction of putting the aid in the way we want to put 
it in, be accountable, and get the results that we want?
    Ms. Fair. I think everyone sort of talks about the fact 
that we don't have a big enough footprint in the U.S. Embassy. 
USAID is a booking agency. USAID doesn't have the density of 
educational specialists. They don't have hydrologists or----
    Mr. Tierney. Used to, right?
    Ms. Fair. Used to.
    Mr. Tierney. Used to.
    Ms. Fair. And it is not just USAID. It is CETA, all of the 
major national aid organizations have a very similar business 
model. It is simply not working.
    I am somewhat concerned about the Biden-Luger legislation, 
because if it goes forward as planned I don't know how you are 
going to put all of these resources through a relatively tiny 
pipe.
    I have to say I very much share your skepticism, and I 
think without reinventing the agencies--and I think this is a 
point that Dan has made. I think we are all in agreement. We 
need to do aid differently. The average Pakistani just hasn't 
seen what we have tried to do.
    I think we also have to think about benchmarks. I am a very 
strong proponent that unless we have a partner for change it is 
absolutely pointless. Building schools and the number of 
schools built is not the relevant measure; it is, rather, are 
we having a better educational system, are more children being 
educated, is literacy increasing.
    So not only do we have to re-tool the way we deliver aid; 
we have to re-tool how we engage our partner. What I see a lot 
of in the United States and in Afghanistan is what I call 
supply driven aid. We do what we want to do, irrespective of 
whether or not there is a recipient there who is interested in 
the program, and then the objective is: has the money been 
allocated? This is a very disturbing development. It also 
corrodes governance. It doesn't foster it, because there is no 
accountability as to where these funds actually go once it is 
in the Pakistani treasury.
    Now, I am very lucky. I speak Urdu, so I get to go wherever 
I want to and talk to folk. I have been going to Pakistan since 
1991, and I have never had anyone say this to me, much less 
just hanging out in Anarkali Bazaar in Lahore. You Americans 
throw so much money at our corrupt government, it is as if you 
want to encourage corruption. I heard this repeatedly. Never 
before had I heard it. I really took it to heart that we have 
to redo the way we do business.
    Mr. Tierney. Doesn't that present you with a dilemma, 
though? On the one hand you want to enforce a democracy and a 
new government to sort of empower them to run their government, 
which means that they are going to want to have the money to 
allocate out so people understand that they have responsibility 
for exercising it, and they are a force to be dealt with. On 
the other hand, you are saying that they are so corrupt that 
their own people are saying don't give it to them, they are not 
going to manage it properly, so give it directly to these other 
organizations. What does that then do to the strength or the 
power of the local government?
    Ms. Fair. I actually am a proponent of the former. I 
actually, when you do--I think there is a consensus in the aid 
community that off-budget aid actually circumvents governments 
learning to be responsible in its distribution of resources.
    Let's just focus upon Pakistan. My concern is that right 
out of the door--and you said this in your opening remarks--it 
became very transactional and it became focused on CSF. The 
strategic dialog, such as it is, wasn't even formed until 2006. 
It is neither a dialog, nor is it strategic. I would like to 
give the example of the way in which Indo-U.S. relations have 
been transformed. We actually did have a strategic dialog. It 
had multiple bodies convened. We multiply discussed our 
objectives and how we were going to proceed with those 
objectives.
    What the United States does, it claims to have Pakistani 
buy-in, but in fact if you look at some of the areas that we 
are targeting they are actually the ones that are least 
resistant outstanding change. For example, the Ministry of 
Education. I am a huge fan of primary education, but it is not 
just the number of schools, it is the curriculum. This is a 
sovereign issue, so when we say we want to affect their 
curriculum, nothing turns Pakistanis off more than discussion 
of curriculum change. So this is a really good example of how 
we have to have a strategic dialog with the Pakistanis that is 
really strategic, and we actually have to invest in those areas 
where, A, we have a partner who has the ability to lead and the 
ability to execute. And we have to bring into this government 
structure non-governmental actors so that the relationship 
becomes institutionalized and no longer subjected to the 
vicissitudes of a particular individual or even a particular 
government.
    I think that is our challenge.
    Ms. Curtis. We do need to buildup capacity in Pakistan. It 
is not where Afghanistan----
    Mr. Tierney. In general, unfortunately.
    Ms. Curtis. But in general. So, yes, how you do that, I 
think you have to move very carefully. But, just to reiterate 
again, we need a bigger aid mission. We need more embassy 
staff.
    Mr. Tierney. What we have been struck with is the fact that 
even with the diminished structure of people at the State 
Department and USAID and all that, they didn't even keep enough 
people on with the credentials to manage and oversee the 
subcontractors. So once they made the decision to go out and 
subcontract, they didn't keep enough people in house with the 
expertise to make sure the subcontractors were actually doing 
the work and being held accountable for it, and that is a 
problem.
    Brian, I want to get to you in a second, but my next 
question is this: how long is it going to take us to buildup 
that capacity? I mean, suppose we had all the money in the 
world and we said, OK, here is the blank check for that, it is 
still going to take a lot of time to rebuild that capacity. Or 
are there enough people out there with the expertise that we 
can entice to come back in and participate as Government 
employees in those areas? Brian.
    Mr. Katulis. First, Mr. Chairman, I have an anecdote based 
on my experience out there in terms of USAID employees. I think 
we have a lot of committed individuals out there; they are just 
stretched thin.
    I was struck by how the democracy in governance officer 
that USAID had in the run-up to these elections in February, 
they didn't have a permanent democracy in governance officer. 
They were rotating people in for 6 weeks at a time during a 
period where it was a very tumultuous and historic period in 
their democratic transition, very important work to be done, 
election monitoring, all of the work that NDI does.
    I am of the mind--and this is why I highlighted this in my 
opening remarks and it is in the book that I wrote and gave to 
you there--it is going to take a long time globally to 
restructure our national security agencies. Pakistan is an 
important test case, and if we can commit resources to it--and 
I would like to hear what the other experts on the panel have 
to say--a new administration could up the level of resources in 
a matter of weeks or months and present a new face out there. 
That will require a political dexterity that I think has not 
been exhibited by some of our agencies, a moving quickly that I 
think, if you will look at the experience of Iraq--and Mr. 
Shays talked about this--I think we have learned from some of 
our mistakes in Iraq, but some of these institutional cultures 
inside the U.S. national security agencies require fundamental 
reform.
    I think if you could look at Pakistan as a test case, a 
pilot project, an urgent test case for our national security to 
present a new face on national security with General Petraeus 
coming in on the Central Command leadership, I think he is 
fairly attuned to looking at all of these other components of 
American power and how do you update and revive that. I don't 
think you will cure it overnight, but I think with urgent 
action and a high-level Presidential and congressional 
engagement on this issue you could actually move pretty 
quickly. I don't know if people would disagree with that.
    Mr. Tierney. I think we can say, from our testimony here, 
that Secretary Gates is obviously leaning in that direction and 
has appreciation for it, and there was money in the President's 
budget for about 1,000 new positions in State. It is now 
incumbent on Congress to do something about getting it funded 
and then decide how we bring it up to scope even beyond that.
    Dr. Markey.
    Mr. Markey. If I could just layer upon that, I agree that 
these very big changes may need to be made in terms of the way 
that State and aid do business, but I think that it may be 
useful, just given how heavy a lift that is going to be, to 
really start with the Pakistan-Afghanistan case first. Invest 
in building these kinds of physical institutions and also 
people that we don't have in place.
    Just one quick anecdote. When I was in Showar the last time 
I met with a young American working as a contractor for an 
international organization that has been essentially contracted 
by USAID to do business there, and I asked him very directly, 
would you be willing to work for the U.S. Government if there 
was a flexible hiring authority that would bring you in and 
allow you to do very similar work, the kind of work you are 
doing right now, but report directly to the U.S. Government, 
and I got a, well, maybe, but yes, I think I might consider it 
very seriously.
    So I am not saying he is necessarily the kind of expertise 
that you are looking for, but there are some people out there 
who are right now essentially being contracted through several 
layers.
    One other example within USAID, I met with somebody who is 
very senior who is handling global kinds of issues, and I said, 
You know, you are quite expert in this particular area. Why are 
you handling all these other issues? And she said, well, 
professionally I am encouraged not to stay within one area of 
expertise. I am very strongly encouraged to bounce all around 
the world or to handle a much wider portfolio. That is the 
structure within the organization that actually needs to be 
changed. Develop a core group of really expert people.
    If we intend to be in this particular region for a while, 
we need less flexibility and more staying power, and that is 
how you need to develop it.
    So maybe it doesn't mean changing the entire institution 
right away, but building a core of expertise for a problem that 
we all agree is real.
    Mr. Tierney. Mr. Shays, do you have some more questions?
    Mr. Shays. Yes, I do.
    Mr. Tierney. Please.
    Mr. Shays. Thank you.
    I would like to bring Afghanistan into the picture here. 
Briefly, where is Afghanistan similar to Pakistan? I am not 
looking for a long list. Are there similarities, and where are 
they quite different. I mean, from a population of Sunnis, you 
have 80 percent Sunni in Afghanistan, 77 percent in Pakistan. 
But are they very different countries? And where are there some 
similarities?
    Ms. Curtis. Pakistan is much more economically developed 
than Afghanistan. You really can't compare the economies. I 
mean, you have a functioning economy, you have a stock market, 
you have developed urban areas. But I guess the similarities 
are what we are really interested in. The security issue, which 
is the FATA, where you do have Pashtuns. You have Pashtuns in 
Afghanistan and Pakistan, and particularly that tribal border 
area where you have people who move back and forth and don't 
really recognize the border. So in that respect, that area is 
similar to Afghanistan.
    Mr. Shays. Has Afghanistan ever really had the industrial 
age? Has the FATA region ever had the industrial age?
    Ms. Curtis. Not really. No. That is where it is similar.
    Mr. Shays. OK. Any other comments?
    Ms. Fair. I think a couple of interesting differences. One 
is the whole structure of governance. If anything, Pakistan has 
had a history of a very overly strong central governance. Local 
governance structures have rarely functioned and they don't 
really have the capacity or legitimacy that the central 
government does, for better or for worse.
    In Afghanistan it is kind of interesting, I think. Coming 
out of the whole Yugoslavia experience in the post-Taliban 
Afghanistan, the United States and its allies were insistent 
upon making Afghanistan a strong central government. Now, there 
were periods in Afghanistan's time where you could say it 
perhaps had one, but in reality the central government for most 
Afghans doesn't really exist, and the real center of power 
actually is local.
    Mr. Shays. See, this is really what I am getting into. If 
Afghanistan wasn't next to Pakistan, I am not sure I would care 
about Afghanistan.
    Ms. Fair. I would agree with you.
    Mr. Shays. And we are making decisions like we have trained 
about 443,000 national security force, 65,000 army, 78,000 
police. The rule of thumb basically is we need 20 per 1,000 
when you are trying to control insurgencies. That would mean 
that you would need about 620,000 security personnel. We have 
143,000 and we are planning to get 200,000, which is one-third 
of what we need. So even if we take 2 years to get to the one-
third, we are still two-thirds short.
    When we talk about this being the ``good war'' in 
Afghanistan, I am not sure why we mean it. I could make an 
argument clearly that we shouldn't have gone into Iraq, but 
once we were there and disbanding the Army I can make a very 
strong argument, and I think I do, of why we couldn't leave. 
But at least I saw a strategic interest, and that was we 
couldn't allow terrorist organizations to control a region 
where two-thirds of the world's oil, gas, energy is.
    But I don't see that in Afghanistan, and what I see in 
Afghanistan is a corrupt government, highly corrupt, open trade 
that at least Pakistan has made some effort to control but 
Afghanistan hasn't. So this gets to my question. Do we make 
things worse in Pakistan by trying to do what we are doing 
half-heartedly in Afghanistan, and do we make Pakistan a more 
dangerous place because of that? Nodding of heads doesn't get 
recorded.
    Ms. Fair. I will say yes. I mean, I absolutely agree with 
that. I don't think you were here. I argued earlier in this 
session that the way we went into Afghanistan in 2002, 
obviously breaking all the commitments that we made to Pakistan 
about how Kabul would fall by whom and the security 
arrangements that we set up basically relying upon the 
Taliban's foes, which is by proxy Pakistan's foes, really 
conditioned Pakistan's beliefs about how Afghanistan would 
shape. I continue to believe that this is why we are seeing 
this sort of Janus-faced participation. In the end they have to 
live with Afghanistan, we don't, and they are very hesitant to 
let go of Haggani. They are very hesitant to let go of Haggani 
because the time will come they believe when we leave and they 
have to deal with that.
    From the Afghan side, we have enough troops to deliver 
insecurity in the form of civilian casualties. We kill as many 
civilians as the Taliban do, which is not exactly an 
encouraging metric.
    Mr. Shays. Are you saying in Afghanistan?
    Ms. Fair. In Afghanistan we kill just as many civilians as 
the Taliban do, so if you look at the death tolls there, we run 
neck and neck with the Taliban every single year. We rely 
upon----
    Mr. Shays. I don't think that is accurate.
    Ms. Fair. It is pretty darn close. Depending on the year 
and depending on what period you are looking at. Now, there has 
been some improvement in recent years, but if you go back to 
the beginning we do run very close. Part of it is these air 
strikes. Different data bases say different things. When I 
worked with UNAMA, our UNAMA data suggested that they were 
similar.
    But the problem for your average Afghan is that there are 
enough troops to provide insecurity but not enough troops to 
provide security. If you look at the public opinion polling 
data, there are issues with polling in Afghanistan, for sure, 
but if you look at the trend what you see is that support for 
Taliban is certainly inching up, support for the government is 
declining.
    Mr. Shays. Let me just jump in. That is kind of my concern. 
My concern is that we met with students who said, you know, 
about Afghanistan, 70 percent of our population can't read or 
write. They believe that the failure to come to grips with the 
insurgency is something that we prefer because that allows us 
to occupy. They think we want to occupy. I am concerned that if 
we are not going to train enough of their own troops, we have 
to bring in more of our own, and then we become the occupier.
    But I am really trying to bring this to Pakistan, since 
this is our topic, and understand whether what we are doing in 
Afghanistan is helping Pakistan or hurting it and then what the 
alternative would be. I guess I would end with that question. I 
would like to ask all of you.
    Ms. Fair. There is a chain reaction. What we do in 
Afghanistan, and not just what we do but also how it is 
depicted in the Pakistani media, the vast majority of which is 
in Urdu, the vast majority of which we have no assets to 
monitor in a comprehensive way. Folks in FATA who are co-ethnic 
with many people in Afghanistan, this reflects, they look at 
what we are doing in Afghanistan. It affects a wider 
radicalization. We are taking heat from the Taliban. We put 
pressure on the Pakistanis to act in FATA, which it can't, 
therefore we do unilateral action, which is then reverberated 
throughout the entire Pakistani population as also an invasion 
of their sovereignty.
    So there is this enormous ripple effect, and people do 
forget that Pakistanis, like folks elsewhere in the region, 
watch TV, listen to radio, thoroughly globalized media.
    Mr. Shays. I hear what you are saying. Let me hear from 
some other folks so we can wind this up.
    Ms. Curtis. Sir, your comments make me nervous. We cannot 
afford to have Afghanistan fall back to the Taliban and become 
a terrorist safe haven again, first off.
    I was in Pakistan in the mid-1990's. I served in the 
Embassy there. A month after I arrived, the Taliban was rolling 
into Afghanistan. The situation is much worse now, so in a 
sense it is similar to the Iraq situation. We can't afford----
    Mr. Shays. The question is can we afford to have the 
Afghans believe we are occupiers? Can we afford to do what 
historically has happened in Afghanistan, and that is occupiers 
unite the Nation against them. You know, those are the 
questions I am asking can we afford.
    Ms. Curtis. No, we can't, and that is why we need to focus 
on the training, the ANA. Before I came here we had General 
Wardak, the Minister of Defense from Afghanistan. He laid out a 
very clear plan of what he is doing to train out the Afghan 
forces, acknowledging that ultimately it is the Afghan forces, 
the Afghan institutions that have to take control of security 
and stability.
    Mr. Tierney. Can I interject something here? Chairman's 
prerogative on this a little if I can. We spent considerable 
time in both countries, Afghanistan and Pakistan, talking to a 
wide range of people, from the business community to the media 
folks to educators, government officials, NGO's. I think staff 
with me and others, all we heard is, what are you so focused on 
the military for? We definitely need security. Here is a 
quote--Samina Ahmed who works in the International Crisis Group 
said this, but I think it is representative of what we heard 
from a lot of people. ``Militaries are blunt instruments. They 
are not good at counter-insurgency. The police would be a far 
more effective instrument.''
    If we really trained out the local security forces, the 
police in Afghanistan and Pakistan, you can't ignore the 
military. But aren't we missing the boat if we don't really 
ramp up the local police that are right at the level where 
people want the most interaction with them, the ones who know 
people and could probably persuade them to address this a 
little bit better than the military marching in and thumping 
them around?
    Brian. Dan.
    Mr. Katulis. I agree with that. I am sorry to go back to my 
Johnny one note point. Do we have the capacity to do that? I 
mean, I think we have increased it----
    Mr. Tierney. There is international capacity to train up.
    Mr. Katulis. Exactly. And are we marshalling that?
    Mr. Tierney. No.
    Mr. Katulis. Yes, I think we need to do a better job on 
that front. I think that the local police, this is a challenge 
in Iraq as you well know, too. But we don't have a structure 
inside of the U.S. Government. We have had friends in other 
think tanks, like John Nagl at CNAS, say we need a corps of 
trainers----
    Mr. Tierney. But other international organizations----
    Mr. Katulis. They could do that.
    Mr. Tierney [continuing]. Have good trainers, other 
countries have good trainers, and we can certainly find a way 
to do it if that is a good part of the answer.
    Mr. Katulis. Yes.
    Mr. Tierney. Which we are hearing from a number of experts 
and a number of people here that it is.
    Mr. Katulis. I agree that it is an important part. Going 
back to one of the things I was stressing, when people in 
Pakistan in the public opinion polls talk about security, they 
talk about very localized issues in their own community. I 
think that is essential to re-shift our policy levers and work 
with others to help develop that capacity. Tremendous 
challenges in doing that, and I think the rest of the panel----
    Mr. Tierney. Unless there is any extraordinary disagreement 
to that?
    [No response.]
    Mr. Tierney. I will try to bring this meeting to an end.
    Mr. Shays. Let me just make a comment if I could.
    Mr. Tierney. All right.
    Mr. Shays. And that is that your comment about there never 
being a strong central government makes me believe that our 
game plan is hugely flawed, and that ultimately what we are 
going to do is de-stabilize both regions. I hope whoever is the 
next President really comes to grips with this issue, because 
one of the Pakistani leaders--I think it may have been the 
Governor from the northern region--was saying to us that what 
Karzai has to do is he has to bring all the tribes together and 
make peace, and it is not going to be the kind of peace that we 
want as Americans, but that is the only way there has ever been 
peace.
    Mr. Tierney. Well, thank you, Mr. Shays, and thank all of 
you for your testimony and your conversation with us here 
today. I think it has been extraordinarily helpful to get into 
some of these issues a little deeper and have some thoughtful 
approaches to it.
    The people that weren't here, you can trust that they are 
not disinterested. There is a lot else going on this week, as 
you know. They will read your testimony. They will also look at 
the video, which will run on our Web site, the subcommittee Web 
site. I am sure others will, as well. And I hope many people 
do, because I think it has been very insightful and helpful and 
I thank all of you for joining us and helping us today.
    We are adjourned.
    [Whereupon, at 4:40 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
